November 2007
Report No. EVAL-08-001

The FDIC’s Internal Risk Management
Program
                                                                                                              Executive Summary
                                                                                                          Report No. EVAL-08-001
                                                                                                                  November 2007

                                             The FDIC’s Internal Risk Management Program
                                             Results of Evaluation

                                             The FDIC has a number of internally-focused committees and groups that help to keep
                                             the Board, Chairman, and senior executives informed of management operations and
                                             internal risks facing the Corporation and aid them in their decision-making. Taken
Background and Purpose of                    collectively, these committees and groups as well as their respective reports and
Evaluation                                   briefings provide a comprehensive means for managing internal risk and establishing
                                             transparency. More could be done, however, to (1) institutionalize how these entities
Enterprise Risk Management (ERM) is          interrelate and support ERM and (2) ensure the continuity of risk management efforts as
a process, effected by an entity’s board     changes in leadership and/or senior management occur.
of directors, management and other
personnel, applied in strategy setting       We evaluated the FDIC’s overall internal ERM efforts against key concepts and
and across the enterprise. ERM is            principles of COSO’s ERM Framework. We also evaluated the FDIC’s overall ERM
designed to identify potential events that   efforts against the provisions of Office of Management and Budget Circular A-123,
may affect the entity, and manage risk       Management’s Responsibility for Internal Control. The FDIC has implemented
to be within its risk appetite, to provide   elements of several of the ERM Framework components through the establishment and
reasonable assurance regarding the           actions of OERM and has established other internal risk management functions outside
                                             of OERM’s purview. However, the FDIC’s overall ERM program varies in some
achievement of entity objectives.
                                             respects from what is recommended by COSO. Although organizations have latitude
                                             and flexibility in implementing ERM to meet specific needs, the FDIC may wish to
ERM is a fundamental element of              further study the following aspects of its ERM program to maximize the effectiveness
corporate governance practices in an         and efficiency of the various risk management activities currently in place throughout
organization. According to Protiviti®,       the Corporation.
Inc., a leading provider of independent
internal audit and business and                 •    Defining and communicating the Corporation’s risk appetite and ensuring that
technology risk consulting services,                 corporate objectives are aligned with that appetite;
“ERM is about establishing the                  •    Implementing corporate-wide consistent processes for identifying, assessing,
oversight, control and discipline to drive           and responding to risks;
continuous improvement of an entity’s           •    Establishing effective channels for OERM to communicate risk information up,
risk management in a changing                        down, and across the Corporation; and
operating environment.”                         •    Monitoring the implementation of the overall ERM program.

In May 2004, the FDIC changed the            According to the FDIC Bylaws and implementing policy reflected in Circular 4010.3,
name and focus of the Office of Internal     FDIC Enterprise Risk Management Program, OERM is responsible for administering a
Control Management to the Office of          comprehensive ERM program at the FDIC. OERM has issued policy providing high-
Enterprise Risk Management (OERM)            level guidance for ERM program requirements and detailed guidance to OERM staff
and charged OERM with the                    who serve as risk managers on large IT projects. FDIC senior officials advised us that
responsibility of administering the          they are pleased with OERM’s contribution to risk management and key internal
FDIC’s enterprise-wide risk                  initiatives. However, we noted that OERM’s activities and focus are inconsistent with
management program.                          the FDIC Bylaws and policy governing the Corporation’s ERM program. In this regard,
                                             the FDIC could benefit from adding more structure to OERM’s existing internal ERM
Our objective was to assess: (1) the         policy and program, by:
extent to which the FDIC has
implemented an ERM program                      •    Defining the roles of the FDIC Board, Chairman, and Audit Committee in
consistent with applicable                           ERM and reconciling the stated role of OERM with actual practice;
government-wide guidance, and                   •    Issuing comprehensive procedures and guidance to establish consistent
(2) OERM’s implementation of FDIC                    processes, tools, techniques, and models for identifying, assessing, mitigating,
                                                     and reporting risks; and
Circular 4010.3, FDIC Enterprise
                                                •    Providing corporate-wide training in ERM.
Risk Management Program, dated
September 25, 2006.
                                             We evaluated the status of the FDIC’s internal ERM program as administered by
                                             OERM against an ERM capability maturity model developed by Protiviti®, Inc., that
                                             provides criteria for ranking ERM programs on a continuum of five stages of
                                                                                                           Executive Summary
                                                                                                       Report No. EVAL-08-001
                                                                                                               November 2007


                                           Results of Evaluation (continued)
                                               TABLE OF CONTENTS
A principal source of criteria that we     maturity from an Initial State to an Optimizing State. We concluded that the internal
used in evaluating the Corporation’s       ERM program is in the Initial State, but possesses certain attributes of the Repeatable
approach to internal risk management       State, the second level of maturity. Characteristics of the Repeatable State include a
is the Committee of Sponsoring                                D Rbasic
                                           basic policy structure,  A Frisk
                                                                         T management processes, and basic control activities, all
Organizations of the Treadway              of which the FDIC possesses. However, the Repeatable State is also described as
Commission (COSO) Enterprise Risk          having explicitly defined and understood roles and commitments, people trained in the
Management — Integrated                    ERM process, independent spreadsheet models, and regular actionable reports—areas in
Framework. OERM’s ERM policy               which OERM’s program has not progressed as far.
(Circular 4010.3) states that the FDIC
emphasizes guidance provided by            Finally, this report includes a matter for the FDIC’s consideration regarding the
COSO and references the ERM                relationship between the Corporation’s internal and external risk management efforts.
Framework.                                 The FDIC’s ERM Program is limited to internal FDIC operations, by design. However,
                                           this approach varies from the fundamental COSO tenet that ERM should be applied
Additionally, we researched relevant       across the enterprise, at every level and unit, and should include taking an entity-level
federal guidelines and practices related   portfolio view of risk and consider interrelated risks from that perspective. In the
to ERM. We also consulted extensive        interest of furthering effective corporate governance practices, we suggest that the FDIC
work by Protiviti®, Inc., to gauge the     examine the relationships between the Corporation’s internal and external risk
                                           management activities to ensure they are complementary or integrated to the extent they
maturity of OERM’s risk management
                                           efficiently and effectively mitigate any current or future risks to the successful
efforts and discern best practices in
                                           accomplishment of the FDIC mission.
enterprise risk management.
                                           OIG Recommendations and Management Response
Finally, we were mindful of the results
of the recent study conducted by the
U.S. Government Accountability             Much of the material in this report is informational—to provide an understanding of the
Office (GAO) related to the                various ERM activities currently in place throughout the Corporation. However, the
Corporation’s external risk                report also contained seven recommendations and two suggestions intended to:
                                           (1) address the variances between certain current FDIC practices and approaches to
management activities.
                                           ERM and those advocated by the COSO ERM Framework and applicable FDIC and
                                           government-wide guidance and (2) add clarity and structure to the ERM program.

                                           After discussing the draft report findings, suggestions, and recommendations with the
                                           Chairman, management provided us a written response, dated October 18, 2007. FDIC
                                           management agreed in its response to our draft report to:

                                           •   Develop a more comprehensive blueprint to enhance coordination and to document
                                               the various committees and groups that contribute to ERM,
                                           •   Take efforts to more clearly define and communicate the Corporation’s risk appetite
                                               and ensure that corporate objectives are aligned, and
                                           •   Clarify the roles of the Chairman, the Board, and the Audit Committee in relation to
                                               the ERM program.

                                           These actions are responsive to one of our suggestions and two of our recommendations.
                                           Management disagreed with the remaining five recommendations and suggestion. In
                                           this instance, because the Chairman, who serves as the Corporation’s audit follow-up
                                           official, has been involved in the response process, management’s written comments
                                           constitute the FDIC’s final determinations regarding the suggestions and
                                           recommendations in our draft report. Accordingly, we consider the recommendations
                                           closed and will not pursue them further. The Chairman committed to tracking those
To view the full report, go to             corrective actions agreed to by management. Accordingly, management’s planned
www.fdicig.gov/2008report.asp              actions in response to (1) our suggestion regarding documenting how the various
                                           committees and groups interrelate in managing internal risk and (2) Recommendations 1
                                           and 5 should be included in the Corporation’s Internal Risks Information System, along
                                           with expected completion dates.
                                                  TABLE OF CONTENTS

EVALUATION OBJECTIVE ..................................................................................................... 1

BACKGROUND ............................................................................................................................ 2

EVALUATION RESULTS .........................................................................................................                5

FDIC Committees and Groups that Contribute to Internal Risk Management.................... 5
     Suggestion for Management……………………………………………………………... 8

Comparison of the FDIC’s Overall Internal ERM Efforts to the COSO
ERM Framework .........................................................................................................................     9
     Internal Environment .........................................................................................................         9
     Objective Setting................................................................................................................      12
     Event Identification………………………………………………………………………                                                                                        13
     Risk Assessment ................................................................................................................       16
     Risk Response....................................................................................................................      18
     Control Activities...............................................................................................................      19
     Information and Communication.......................................................................................                   21
     Monitoring .........................................................................................................................   26
     Recommendations..............................................................................................................          27

Structure of the FDIC’s Internal ERM Program .....................................................................                          29
       Roles and Responsibilities .................................................................................................         30
       Policies and Procedures .....................................................................................................        32
       Training Programs .............................................................................................................      33
       Maturity Level of the FDIC’s Internal ERM Program ......................................................                             34
       Maturity Assessment of the FDIC’s Internal ERM Program.............................................                                  36
       Recommendations..............................................................................................................        36

Other Matter for Consideration: Integrating Enterprise Risk Management at the FDIC...                                                       37
     Enterprise Risk Management at the FDIC ..........................................................................                      37
     Opportunities to Enhance ERM at the FDIC.......................................................................                        40

Corporation Comments and OIG Evaluation...........................................................................                          40

Appendix I: Objective, Scope, and Methodology.....................................................................                          45
Appendix II: Division and Office Risk Management/Internal Review Programs................                                                   48
Appendix III: Corporation Comments .....................................................................................                    52
Appendix IV: Management Responses to Recommendations ................................................                                       64

Tables:
Table 1: Common Elements of ERM Infrastructure.....................................................................                         29
Table 2: Examples of ERM-Related Training Topics ..................................................................                         33
Table 3: Division and Office Internal Review Staffing ................................................................                      48


                                                                     i
Figures:
Figure 1:   COSO ERM Framework ................................................................................................   2
Figure 2:   Internally-Focused Committees and Groups that Contribute to Internal ERM..............                                6
Figure 3:   Protiviti®, Inc. ERM Maturity Model............................................................................       35
Figure 4:   Entities that Contribute to Internal and External Risk Management..............................                       39


                                                  ACRONYM LIST

       ADR                            Alternative Dispute Resolution
       AICS                           Administration & Internal Control Section, Division of Finance
       APP                            Annual Performance Plan
       AU                             Accountability Unit
       BAPA                           Budget and Accounting Procedures Act of 1950
       CEO                            Chief Executive Officer
       CFO                            Chief Financial Officer
       CFO Act                        Chief Financial Officers Act of 1990
       CIO                            Chief Information Officer
       CIRC                           Capital Investment Review Committee
       CM                             Corporate Manager
       COBIT©                         Control Objectives for Information and Related Technology
       COO                            Chief Operating Officer
       COSO                           Committee of Sponsoring Organizations
       CPO                            Corporate Performance Objective
       CU                             Corporate University
       DIR                            Division of Insurance and Research
       DIT                            Division of Information Technology
       DOA                            Division of Administration
       DOF                            Division of Finance
       DRR                            Division of Resolutions and Receiverships
       DSC                            Division of Supervision and Consumer Protection
       ERM                            Enterprise Risk Management
       FDIC                           Federal Deposit Insurance Corporation
       FDIC Board                     FDIC Board of Directors
       FFIEC                          Federal Financial Institutions Examination Council
       FFMIA                          Federal Financial Management Improvement Act
       FISMA                          Federal Information Security Management Act
       FMFIA                          Federal Managers’ Financial Integrity Act of 1982
       GAO                            Government Accountability Office
       GPRA                           Government Performance and Results Act of 1993
       ICL                            Internal Control Liaison
       ICRS                           Internal Control and Review Section, Division of Supervision and
                                      Consumer Protection
       IRG                            Internal Review Group, Legal Division
       IT                             Information Technology


                                                              ii
MSS    Management Support Section, Division of Administration
NFE    New Financial Environment
NRC    National Risk Committee
OCC    Office of the Comptroller of the Currency
ODEO   Office of Diversity and Economic Opportunity
OERM   Office of Enterprise Risk Management
OICM   Office of Internal Control Management
OIG    Office of Inspector General
OMB    Office of Management and Budget
OPA    Office of Public Affairs




                       iii
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                November 30, 2007

MEMORANDUM TO:                       Sheila C. Bair
                                     Chairman, FDIC


                                     [Signed]
FROM:                                Jon T. Rymer
                                     Inspector General

SUBJECT:                             The FDIC’s Internal Risk Management Program
                                     (Report No. EVAL-08-001)

Enterprise Risk Management (ERM) is a process designed to help management effectively deal
with risks to achieving an entity’s objectives. ERM integrates risk management with existing
management processes, identifies future events that can have both positive and negative effects,
and evaluates effective strategies for managing the organization’s exposure to those possible
future events. It aligns strategy, people, processes, technology, and knowledge with a strategic
emphasis and an enterprise-wide application. 1

The FDIC has a number of committees and groups that contribute to the FDIC’s overall ERM
efforts. Further, the FDIC established the Office of Enterprise Risk Management (OERM) to be
responsible for ensuring that the Corporation has a risk management program in place and
operational for all divisions and offices. OERM specifically focuses on risks internal to the
FDIC while external risk management is the primary responsibility of other divisions and offices
throughout the Corporation.


EVALUATION OBJECTIVE

Our objective was to assess:

      •   the extent to which the FDIC has implemented an ERM program consistent with
          applicable government-wide guidance and

      •   OERM’s implementation of FDIC Circular 4010.3, FDIC Enterprise Risk Management
          Program, dated September 25, 2006.

Appendix I describes in detail our objective, scope, and methodology.

1
    Description of ERM is based on a publication entitled, Enterprise Risk Management: Practical Implementation
    Ideas, by Protiviti®, Inc., an independent risk consulting firm. Protiviti®, Inc., has issued a number of
    ERM-related publications and has been recognized by an independent research firm as a risk consulting services
    leader. The Managing Director for Protiviti®, Inc., was also a member of the Project Advisory Council to COSO
    during development of the ERM Framework.
BACKGROUND

   The Committee of Sponsoring Organizations of the Treadway Commission
   (COSO) defines ERM as “a process, effected by an entity’s board of
   directors, management and other personnel, applied in strategy setting
   and across the enterprise, designed to identify potential events that may
   affect the entity, and manage risk to be within its risk appetite, to provide
   reasonable assurance regarding the achievement of entity objectives.”


COSO’s report, Enterprise Risk Management – Integrated Framework, (September 2004),
defines essential components, suggests a common language, and provides direction and guidance
for ERM. Notably, ERM requires an entity to take a “portfolio” view of risk that examines the
entire organization, from the enterprise level, to a division or subsidiary, to the level of a single
business unit’s processes. As shown in Figure 1, ERM consists of eight interrelated components,
which are integral to the way management runs the enterprise. The components are linked and
serve as criteria for determining whether ERM is effective.

Internal control is encompassed within, and is        Figure 1: COSO ERM Framework
an integral part of, ERM. ERM is broader
than internal control, expanding and
elaborating on internal control to form a more
robust conceptualization focusing more fully
on risk.

History of Internal Control and
ERM at the FDIC
In May 1996, the FDIC Board of Directors
(FDIC Board) created the Office of Internal
Control Management (OICM) to act as the
corporate oversight manager for risk
management and internal control. OICM’s
responsibilities included developing and               Source: COSO ERM Integrated Framework, dated
implementing cost-effective programs to                September 2004
evaluate and strengthen internal controls,
establishing guidelines and providing training related to internal controls, assisting program
managers in identifying significant weaknesses and promoting timely and cost-effective
corrective action, and establishing guidelines for a standard visitation program to effectively
assess the condition of significant FDIC activities.

In March 2004, the FDIC Chief Financial Officer (CFO) proposed that OICM’s office name be
changed to OERM to better reflect industry risk management best practices and OICM’s focus
and initiatives at the time, particularly working with Information Technology (IT) security
initiatives and serving as risk managers for several high-profile IT projects. In May 2004, the
prior Chairman and the FDIC Board approved changes to the FDIC Bylaws to reflect the name
change and revisions to the powers and duties of OICM.



                                                  2
    According to the FDIC Bylaws, the Director, OERM, is responsible for administering the
    enterprise-wide risk management program that monitors and manages risk by maintaining
    partnerships with FDIC divisions and offices, providing training, and addressing internal
    control deficiencies. In addition to implementing a comprehensive ERM program, OERM is
    responsible for facilitating the annual assurance statement process, conducting program
    evaluations of the FDIC’s major business lines, serving as a liaison to OIG and United States
    Government Accountability Office (GAO) auditors, providing staff support to the FDIC Audit
    Committee, and monitoring audit follow-up and resolution activities. OERM’s ERM policy
    (Circular 4010.3) states that the FDIC emphasizes guidance provided by COSO and references
    the ERM Framework.

    OERM’s staffing consists of 13 employees, including a Director, an Assistant Director,
    3 Senior Management Analysts (CG-15), 5 Senior Management Analysts (CG-14),
    1 Management Analyst (CG-11), 1 Secretary, and 1 Student Intern. OERM’s total budget for
    2007 is about $2.2 million.

    In addition, the FDIC has about 57 employees 2 assigned to divisional and office risk
    management/internal review units that perform internal control-related work for their
    respective division and office directors. These units may coordinate their efforts with OERM,
    but do not report to OERM. Appendix II provides detailed information about each of the
    division and office risk management/internal review units.

    Legal and Regulatory Requirements
    The Congress has long recognized the importance of strong internal control and enacted a
    number of related laws and requirements, including the following:

          •    Budget and Accounting Procedures Act of 1950 (BAPA), which required executive
               agencies, excluding government corporations, to establish and maintain systems of
               accounting and internal controls;
          •    Federal Managers’ Financial Integrity Act of 1982 (FMFIA), which amended the
               Accounting and Auditing Act of 1950 (imbedded in BAPA) by requiring executive
               agencies to establish a continuous process for internal control assessment and
               improvement and to publicly report on the status of efforts by signing annual
               statements of assurance regarding their internal controls and accounting system;
          •    Chief Financial Officers Act of 1990 (CFO Act), which required government
               corporations to prepare statements on internal accounting and administrative control
               systems consistent with the corresponding requirements of the FMFIA;
          •    Government Performance and Results Act of 1993 (GPRA), which required agencies,
               including the FDIC, to set strategic and performance goals, and measure performance
               toward the goals; and
          •    Federal Financial Management Improvement Act of 1996 (FFMIA), which identified
               internal control as an integral part of improving financial management systems. This
               statute does not, however, apply to the FDIC.

2
    Some of these division and office employees have collateral duties beyond risk management.


                                                         3
The FMFIA required the Comptroller General to establish internal control standards and the
Office of Management and Budget (OMB) to issue guidelines for agencies to follow in assessing
internal control. The Comptroller General issued Standards for Internal Control in the Federal
Government in 1983, identifying five standards for internal control. In 1999, the Comptroller
General revised and reissued the internal control standards.

OMB issued Circular A-123, Internal Control Systems, in October 1981 in anticipation of
FMFIA becoming law. In December 2004, OMB released a revised Circular A-123,
Management’s Responsibility for Internal Control, to provide updated internal control standards
and new specific requirements for conducting management’s assessment of the effectiveness of
internal control over financial reporting. The revision also emphasizes the need for agencies to
integrate and coordinate internal control assessments with other internal control-related activities
and requires agencies to annually evaluate and report on the control and the financial
management systems that protect the integrity of federal programs. Additional requirements for
financial management systems are contained in OMB Circular A-127, Financial Management
Systems, which expands upon the notion of agency accounting systems per FMFIA.

The FDIC considers Circular A-123 as setting forth “best practices” and has stated that, so long
as the FDIC complies with the applicable FMFIA provisions on internal control, the Corporation
will have complied with Circular A-123.




                                                 4
EVALUATION RESULTS

FDIC Committees and Groups that Contribute to Internal Risk Management
The FDIC has a number of internally-focused committees and groups that help to keep the FDIC
Board, Chairman, Audit Committee, and senior-most executives informed of management
operations and internal risks facing the Corporation and aid them in their decision-making.
Taken collectively, these committees and groups and associated reports and briefings provide a
comprehensive means for managing internal risk and establishing transparency.

We concluded that more could be done to institutionalize how these various entities interrelate
and support ERM and to ensure the continuity of the Corporation’s risk management efforts in
the event of changes in leadership and/or senior management. As discussed below, many of
these committees and groups are responsible for managing or monitoring specific internal
corporate operations or functions such as major capital investments, system development efforts,
or human capital initiatives that have the potential to present risks to the Corporation. While
many of these committees have charters that specifically establish their purpose, membership,
regular meetings, and reporting responsibilities, we did not see a clear articulation of how these
committees and groups interact to support ERM in the Corporation. The FDIC’s CFO indicated
that such interactions do occur and are understood by FDIC managers, but acknowledged that
such interactions could be better documented.

Figure 2 on the next page presents our understanding of the committees and groups involved in
keeping the FDIC Board, Chairman, Audit Committee, and senior FDIC executives, such as the
Chief Operating Officer (COO) and the CFO, aware of management operations and internal risks
facing the Corporation and aiding them in their decision-making. 3 A brief discussion of each
committee or group follows the figure. Figure 2 is not exhaustive and there may be other groups
involved in internal risk management. In addition, Figure 2 does not include the committees and
groups responsible for monitoring external risks facing the Corporation.




3
    We did not evaluate these committees or assess their activities in our review. Rather, through research, we
    obtained an understanding of the general purpose and membership of the various committees.


                                                           5
Figure 2: Internally-Focused Committees and Groups that Contribute to Internal ERM

                                          Chairman                                        Audit
                                         COO & CFO                                      Committee


     Internally-Focused Committees                        Office of Enterprise Risk
     Operational
     • Operating Committee                                Management (OERM)
     • Corporate Investment Advisory Group
     • Savings Plan Committee                      Divisional Internal Control/Risk
     • Customer Advisory Committee                 Management Units
                                                   • DSC Internal Control and Review
     Human Resource Related                          Section                               Office of
     • Human Resources Committee                   • DRR Internal Review Section
     • Executive Review Board                                                              Inspector
                                                   • DIR Planning and Resource
     • Chairman’s Diversity Advisory Council         Management Section
                                                                                           General (OIG)
     • Diversity Steering Committee                • Legal Division Internal Review
     • Alternative Dispute Resolution Steering       Group
       Committee                                   • DIT Audit and Internal Control
                                                     Section                               Government
     Information Technology Related                • DOF Administration and Internal
     • Capital Investment Review Committee           Controls Section
                                                                                           Accountability
     • Chief Information Officer Council           • DOA Management Support                Office (GAO)
     • Project Management Office                     Section
     • Corporate Data Sharing Steering Committee   • Other internal control resources
     • Information Technology Committee              within FDIC offices
     • Website Advisory Committee


Source: OIG analysis based on interviews and review of Corporation documents.

Operating Committee: Chaired by the COO, membership is comprised of the FDIC Chairman,
Vice Chairman, Deputies to the Chairman and Vice Chairman, and directors of all divisions and
offices. This Committee, which is scheduled to meet biweekly, serves as a briefing forum to
ensure that Committee members are informed of issues concerning the Corporation.

Corporate Investment Advisory Group: Chaired by the CFO, membership includes Division
of Finance (DOF), Division of Insurance and Research (DIR), and Division of Resolutions and
Receiverships (DRR) directors, who review cash flow projections for each FDIC fund and
provide advice to the CFO concerning (1) investment strategies in light of economic and market
conditions, (2) appropriate levels of liquidity for each fund, and (3) purchase strategies for funds
to be invested in Treasury securities. This Group meets quarterly.

Savings Plan Committee: This Committee is chaired by the CFO and includes the Director,
DIR; Deputy General Counsel (Corporate Operations); Associate Director, Human Resources
Branch, Division of Administration (DOA); and a representative from the National Treasury
Employee’s Union. The Committee considers issues related to the administration of the
Corporation’s 401(k) plan, including the performance of the plan’s investment options.




                                                      6
Customer Advisory Committee: Co-chaired by the DOA and DOF Directors and includes a
senior staff member from each division and office. This committee considers administrative
matters of interest to FDIC management.

Human Resources Committee: Includes executives from FDIC Divisions and focuses on
developing and evaluating human capital strategies with corporate-wide impact. The FDIC
established this Committee to integrate strategic human capital planning into the Corporation’s
planning, budgeting, and investment processes. This Committee meets weekly.

Executive Review Board: Through this Board, the COO, CFO, and other members who might
be appointed make recommendations to the FDIC Chairman on all matters affecting managers
and executives, including compensation, benefits, incentives, and performance management.

Chairman’s Diversity Advisory Council: Through this Council, individuals throughout the
FDIC promote and support a diverse environment, facilitate employee communication with
management regarding diversity concerns, and provide input to the Director, Office of Diversity
and Economic Opportunity (ODEO), on recommendations for changes in policies and
procedures that foster diversity objectives.

Diversity Steering Committee: Chaired by the Director, ODEO, membership consists of
deputy directors for Division of Information Technology (DIT) and Division of Supervision and
Consumer Protection (DSC) and the Deputy General Counsel, Legal Division. This Committee
promotes and supports diversity initiatives.

Alternative Dispute Resolution Steering Committee: The Committee is comprised of
representatives from every office and division designated to oversee corporate-wide alternative
dispute resolution (ADR) policies, procedures, and programs and to assist in the design and
implementation of new ADR processes. This Committee meets quarterly and also prepares for
the FDIC Board an annual report on the uses of ADR throughout the Corporation.

Capital Investment Review Committee (CIRC): Co-chaired by the CFO and Chief
Information Officer (CIO), membership consists of the Deputy to the Chairman, directors for
DIR, DSC, DRR, DOF, and DOA, and the General Counsel. The committee meets quarterly and
provides a systematic management review process to support budgeting for the Corporation’s
capital investments (defined as initiatives with a total capital outlay in excess of $3 million) and
to ensure regular monitoring and proper management of these investments.

Chief Information Officer Council: Chaired by the CIO, members include executive
representatives from DSC, DRR, DIR, DOF, DOA, Legal, DIT, and Corporate University (CU)
as well as a representative of the COO. This Council, which normally meets monthly, advises
the CIO on all aspects of adoption and use of information technology at the FDIC and supports
the CIRC in its management and monitoring of the limited set of major IT investments.

Project Management Office: This office was established as a result of DIT’s 2005
Transformation effort and resides within DIT’s Business Administration Branch. The office




                                                 7
provides a number of critical functions to support the selection, management, oversight and
analysis of a broad inventory of IT projects.

Corporate Data Sharing Steering Committee: Membership is comprised of representatives
from all divisions, the COO’s office, and the CFO’s office. This Committee sets the strategic
direction for corporate data planning, management, and use.

Information Technology Committee: Chaired by the Director, DIT, this Committee includes
members from the CFO’s Office and all divisions and reviews new IT initiatives and makes
recommendations concerning the new initiatives to the CIO Council.

Website Advisory Committee: This Committee includes representatives from OPA, the Legal
Division, DIR, DSC, DRR, DIT, and the COO’s Office, and advises the Chief Web Officer on
issues and corporate policies regarding the FDIC’s Web page.

Audit Committee: This Committee is chaired by the Vice Chairman and includes the Director,
Office of Thrift Supervision, and the Deputy to the FDIC Chairman. The FDIC’s formal rules
indicate that the Audit Committee is responsible for reviewing results of completed GAO and
OIG audits and evaluations, requesting audit follow-up, if necessary, and submitting
recommendations with respect to the audit reports to the Chairman’s office and the FDIC Board.

OERM: Serves as liaison to the OIG and GAO staff working on audits of FDIC operations,
provides staff support to the FDIC Audit Committee and select programs managed by other
FDIC organizations, and coordinates preparation of the FDIC’s Annual Performance and
Accountability Report (Annual Report).

GAO and OIG issue audit and evaluation reports and present the results of their reviews of
FDIC programs, operations, and functions to the Audit Committee. In addition to program
operation and functional audits, the GAO annually audits the FDIC’s financial statements. The
OIG’s business plan includes an annual evaluation of the FDIC’s Information Security Program,
as required by the Federal Information Security Management Act (FISMA).

Division and Office internal review units have their own internal risk management programs
with activities such as regional and office reviews, annual risk assessments, internal control
reviews, risk management reviews, and IT and business process reviews. Appendix II contains
details on the resources and types of risk management activities for the divisions and offices.

Suggestion for Management

As discussed, the FDIC has a number of internally-focused committees and groups that
collectively contribute to internal ERM and good corporate governance. More could be done,
however, to institutionalize how these entities interact to manage internal risks facing the
Corporation and for the purpose of preserving continuity in the event of senior management
changes. Accordingly, we suggest that the Chairman’s Office, in coordination with the COO and
the CFO, articulate and document how the various committees and groups interrelate in
managing internal risk.



                                                8
Comparison of the FDIC’s Overall Internal ERM Efforts to the
COSO ERM Framework
The FDIC has incorporated elements of several of the eight interrelated components outlined in
COSO’s ERM Framework in the Corporation’s overall internal risk management activities.
Specifically, the FDIC’s approach to risk management includes many of the principles
encompassed in the Internal Environment, Objective Setting, and Control Activities components
of COSO. However, we identified variances between the FDIC’s existing ERM program and the
COSO ERM Framework and concluded that opportunities exist for FDIC to make additional
enhancements to its ERM program by incorporating key principles of the COSO ERM
Framework.



  COSO ERM     Internal Environment:
  Framework    Encompasses the tone of an organization, influencing the risk
               consciousness of its people, and is the basis for all other components
               of enterprise risk management providing discipline and structure.

According to COSO, the internal environment influences how strategies and objectives are
established; business activities are structured; and risks are identified, assessed, and acted upon.
This component influences the design and functioning of control activities, information and
communication systems, and monitoring activities. Internal environment factors include:

   •   an entity’s risk management philosophy;
   •   its risk appetite;
   •   oversight by the board of directors;
   •   the integrity, ethical values, and competence of the entity’s people;
   •   how management assigns authority and responsibility; and
   •   how management organizes and develops its people.

Internal Environment Factors at the FDIC

The FDIC practices or possesses many of the internal environment factors in everyday
operations of the Corporation. For example:

   •   The FDIC has published mission statements, a corporate vision statement, and core
       values.
   •   Members of the FDIC Board participate in monthly Board Meetings and are engaged in
       FDIC operations through management reports and periodic meetings with FDIC
       executives.
   •   The FDIC Board has established committees to manage certain functions, and the FDIC
       has established a number of operational committees to evaluate risks and manage
       projects.
   •   The FDIC Board has also delegated authority to committees and FDIC executives to
       carry out corporate functions.


                                                  9
      •   The FDIC holds its executives accountable for achieving corporate goals and objectives
          and has tied employee pay to performance.
      •   FDIC employees are required to follow government-wide standards of ethical conduct
          and supplemental standards pertaining to FDIC employees.
      •   The FDIC established the CU to coordinate and facilitate high-quality, cost-effective
          learning and development consistent with corporate objectives, and the FDIC requires
          employees to take annual awareness training related to information security and privacy.

Opportunities to Enhance the FDIC’s Internal Environment

The FDIC may benefit from more explicitly addressing two factors in COSO’s internal
environment component, namely the FDIC’s risk management philosophy and risk appetite.
According to COSO, an entity’s risk management philosophy:

      •   is the set of shared beliefs and attitudes characterizing how the entity considers risk in
          everything it does, from strategy development and implementation to its day-to-day
          activities;
      •   reflects the entity’s values influencing its culture and operating style; and
      •   affects how enterprise risk management components are applied, including how risks are
          identified, the kinds of risks accepted, and how they are managed.

An entity’s risk management philosophy is reflected in virtually everything management does in
operating the entity and is captured in policy statements, oral and written communications, and
decision making. COSO states that, when the risk management philosophy is well developed,
understood, and embraced by an entity’s personnel, the entity is positioned to effectively
recognize and manage risk. Otherwise, there can be uneven applications of enterprise risk
management across business units, functions, or departments.

Risk appetite is the amount of risk, on a broad level, that an entity is willing to accept in pursuit
of value. It reflects the risk management philosophy and, in turn, influences culture and
operating style. An entity’s risk appetite is considered in strategy setting; guides resource
allocation; and aligns organization, people, processes, and infrastructure. Entities can consider
risk appetite (1) qualitatively, with categories of high, moderate, or low or (2) quantitatively,
reflecting and balancing goals for growth, return, and risk. Protiviti®, Inc. reported that, in
defining enterprise risk management, COSO set a standard for management to manage risk
within the entity’s risk appetite, as understood and agreed by the board of directors, and that
management considers risk appetite when defining objectives, formulating strategy, allocating
resources, setting risk tolerances, 4 and developing risk management capabilities.

In regard to risk appetite, the Director of OERM issued a November 2005 memorandum, Update
on ERM in the FDIC, to division and office directors that discussed the link between “…risk
appetite and reasonable assurance that the Corporation is in substantial compliance with any
given requirement.” The memorandum stated that:
4
    COSO defines risk tolerance, a term often used interchangeably with risk threshold or risk limit, as the acceptable
    level of variation relative to achievement of a specific objective, and often best measured in the same units as
    those used to measure the related objective.


                                                           10
       With respect to “risk appetite”, I believe it is fair to characterize the Corporation
       as being primarily a risk-averse organization, relative to both our external and
       internal responsibilities. Clearly, this is a positive characteristic, given that we
       should be good stewards and strive to lead by example relative to both our peer
       group and the institutions we supervise. At the same time, however, managing to
       perfection or maintaining a zero-tolerance working environment on all controls is
       usually not a preferred course of action and could be counter-productive,
       particularly relative to employee morale and our overall cost-effectiveness.

We do note that elements of the FDIC’s risk appetite are driven by law or regulation, such as the
safety and soundness examination schedule, minimum institution capital levels, and limitations
on investment options for the Deposit Insurance Fund. In other cases, the FDIC has imposed
thresholds or limits, such as Maximum Efficiency, Risk-focused, Institution Targeted
examination parameters or capital investment management oversight thresholds, which serve to
establish risk appetite for discrete processes or functions.

Further, the FDIC Chairman has given speeches that describe the FDIC’s risk appetite in regard
to external matters in the banking industry such as subprime and predatory lending, mortgage
foreclosures, and capital requirements. Also in reference to external risk responsibilities, the
FDIC issued its second quarter 2007 Letter to Stakeholders in August 2007, in which the
Corporation reported its continued focus on monitoring the mortgage market and any negative
impacts on borrowers and insured institutions, bringing unbanked and underbanked populations
into the financial mainstream, and working with other regulators to issue final rules regarding
capital requirements for banks.

However, beyond the above-mentioned memorandum from the Director, OERM, we did not see
evidence of a formally articulated risk philosophy or risk appetite for the Corporation. As
discussed previously, COSO notes this articulation is important in ensuring that an entity is
positioned to effectively recognize and manage risk, define objectives, and allocate resources.




                                                11
                 Objective Setting:
    COSO ERM     Objectives must exist before management can identify potential events
    Framework    affecting their achievement. ERM ensures that management has in
                 place a process to set objectives and that the chosen objectives
                 support and align with the entity’s mission and are consistent with its
                 risk appetite.

COSO states that objectives are set at the strategic level, establishing a basis for operational,
reporting, and compliance objectives. Operational objectives, in particular, vary based on
management’s choices about structure, performance, and risk and reflect preferences, judgment,
and management style. Effective ERM does not dictate which objectives management should
choose, but does help to ensure that management has a process that aligns strategic objectives
with the entity’s mission and that ensures the chosen strategic and related objectives are
consistent with the entity’s risk appetite.

Objective Setting at the FDIC

Consistent with GPRA and related statutes, the FDIC defines its strategies and business
objectives through the issuance of a strategic plan, an annual performance plan (APP), and a
performance and accountability report (Annual Report). The FDIC also has implemented
additional performance measurement processes in the form of Corporate Performance Objectives
(CPOs) and balanced scorecards, as well as other performance metrics related to individual
contracts and system development efforts. These measures cascade throughout the entity,
divisional, and unit levels of the Corporation.

We recently issued an evaluation report 5 that concluded the FDIC has developed and
implemented multiple performance measurement processes and approaches that serve various
stakeholder needs and that FDIC managers use to varying levels to manage and monitor program
performance. Collectively, we found that the FDIC uses performance measures to make
management decisions to improve programs and results. We also found that the FDIC assigns
responsibility for meeting specific performance objectives and completing corporate initiatives to
individual agency managers.

Opportunities to Align Objectives with Risk Appetite

COSO notes that, as part of ERM, management not only selects objectives and considers how
they support the entity’s mission, but also ensures that they align with the entity’s risk appetite.
COSO also discusses establishing risk tolerances, which are acceptable levels of variation in the
achievement of objectives. Entities use performance measures to ensure that actual results are
within established risk tolerances. As discussed above, the FDIC has mechanisms in place for
setting objectives and aligning them with its mission, and uses performance measurements to
improve programs and results. However, with an established risk appetite, FDIC managers may
be able to more readily establish objectives and measurements that are in keeping with the
overall risk philosophy of the Board, Chairman, and other senior executives.
5
    Evaluation of the FDIC’s Use of Performance Measures (EVAL-07-002), dated May 2007.


                                                     12
              Event Identification:
 COSO ERM
 Framework    Management identifies potential events that, if they occur, will affect the
              entity, and determines whether they represent opportunities or whether
              they might adversely affect the entity’s ability to successfully implement
              strategy and achieve objectives.

According to COSO, an event is an incident or occurrence emanating from internal or external
sources that affects implementation of strategy or achievement of objectives. Events with
negative impact represent risks, which require management’s assessment and response. Events
with positive impact represent opportunities, which management channels back into the strategy
and objective-setting processes. When identifying events, management considers a variety of
internal and external factors that may give rise to risks and opportunities, in the context of the
full scope of the organization. Examples of external factors are economic, natural environment,
political, and social. Examples of internal factors include infrastructure, personnel, process, and
technology.

Event Identification Factors at the FDIC

As discussed later, the FDIC identifies potential external events through the Corporation’s
external risk management activities performed principally through three divisions – DSC, DIR,
and DRR – and the external risk committees identified later in Figure 4. In addition, the FDIC’s
2007 Annual Performance Plan includes a discussion of external factors, such as the economy’s
performance at the national, regional, and local levels, which have an impact on the banking
industry and the FDIC.

In regard to the FDIC’s internal ERM program, Circular 4010.3 states that each FDIC manager
should (1) identify key activities within his or her area of responsibility that contribute to the
accomplishment of the division/office and/or corporate mission and (2) seek to determine what
impediments (risks) might threaten the ability to achieve success. The policy notes that key
activities could be tied to CPOs or initiatives defined in the program’s balanced scorecard.

During the 2006 assurance statement process, OERM also requested divisions and offices to
identify second-tier issues—areas of concern that did not rise to the level of a material
weakness—in their assurance statements. The purpose of this exercise is to bring to light issues
that previously may not have received attention because the focus of the assurance statement
process was geared toward disclosing material weaknesses. Collectively, FDIC divisions and
offices identified more than 60 issues. Examples of second-tier issues reported included topics
such as Deposit Insurance Reform, the Contract Electronic File System, and curbing unfair and
deceptive (lending) practices. OERM compiled the second-tier issues into a single list organized
by division and office and provided the list to the Audit Committee in early 2007.




                                                13
Opportunities to Enhance the FDIC’s Event Identification

COSO notes that event identification needs to be robust, because it forms the basis for the risk
assessment and risk response components. COSO also identifies examples of techniques and
tools that may be used to facilitate event identification, such as:

      •    Event inventories: which are listings of potential events common to a specific industry or
           functional area,
      •    Facilitated workshops and interviews: usually of cross-functional teams regarding events
           that may affect achievement of entity or unit objectives,
      •    Process flow analysis: which involves mapping processes to identify potential events, and
      •    Loss event data tracking: which uses relevant data from past events to predict future
           occurrences.

COSO also discusses the importance of identifying interdependencies between events,
categorizing potential events horizontally across an entity and vertically within operating units,
and distinguishing events as either risks or opportunities. Doing so helps management develop
an understanding of relationships between events, and provides information for assessing risks.

Although Circular 4010.3 provides high-level policy guidance for identifying key activities and
associated risks, the Circular does not provide specific guidance for event identification, such as
describing tools and techniques similar to those referenced by COSO above. Further, we
confirmed that OERM has not issued specific guidance regarding the manner in which divisions
and offices should identify events that could affect the achievement of strategic goals and
objectives. We observed that divisions and offices conduct event identification processes to
varying levels and degrees. For example:

      •    DIT is in the process of implementing the Control Objectives for Information and Related
           Technology (COBIT©) framework, an international IT controls and governance standard,
           which includes event identification efforts related to specific IT processes. DIT aligned
           its Accountability Units (AU) 6 with the 34 COBIT© IT business processes, one of which
           is to assess and manage IT risks. For this process, DIT prepared a management control
           plan for 2007 and identified and ranked IT risks.
      •    The FDIC’s Legal Division meets annually with appropriate managers to identify new
           potential risks pertaining to individual AUs.
      •    DRR’s risk management program is integrated with the division’s annual planning cycle,
           and DRR uses its strategic plan to identify risk areas during the fourth quarter of each
           year to determine areas on which to focus internal review efforts for the upcoming year.
      •    DSC identifies risks annually based on and aligned with corporate initiatives.
      •    DOA identified eight functional areas for inclusion in its internal review program through
           consideration of emerging trends, consultation with OERM officials, known areas of high
           visibility and perceived risk, audit conditions, and DOA’s judgment.


6
    An accountability unit is an organization’s programs, functions or operations divided into meaningful units of
    appropriate size or nature to ensure an effective evaluation of internal accounting and administrative controls.


                                                           14
    •   DOF identified risks within the management control plans 7 developed for each of its
        accountability units.

COSO also stresses the importance of linking events and objectives, that is, identifying events
that could prevent the achievement of objectives. In this regard, we interviewed officials from
the Office of the Comptroller of the Currency (OCC) about the OCC’s Enterprise Governance
Program. 8 At the OCC, Enterprise Governance staff is responsible for facilitating the OCC
strategic planning process. OCC executives hold an annual executive conference where
executives identify strategic goals and objectives for the coming year. OCC executives also
identify and assess risks associated with achieving strategic goals and objectives, and risk
tolerances. Enterprise Governance staff document the results of the strategic planning and risk
identification conference in a Strategic Risk Management Plan. An OCC Executive Committee
monitors the plan during the year and meets quarterly to discuss plan status.

FDIC executives also hold an annual planning conference to develop CPOs and annual
performance goals for the coming year, and we have observed that FDIC executives identify and
discuss potential risks to achieving corporate objectives. However, this process is not as formal
or well-documented as the OCC’s approach or as closely coordinated with the ERM program.




7
   A management control plan represents a plan of scheduled internal control reviews based on the accountability
   unit’s risk assessment.
8
  The Comptroller of the Currency established the Enterprise Governance unit, which reports to OCC’s Chief of
   Staff and Public Affairs, to support the OCC’s strategic planning, risk management, quality management,
   assurance testing, and business process improvement efforts.


                                                        15
               Risk Assessment:
 COSO ERM
 Framework     Identified risks are analyzed in order to form a basis for determining how
               they should be managed. Risks are associated with objectives that may be
               affected. Risks are assessed on both an inherent and a residual basis,
               with the assessment considering both risk likelihood and impact.

COSO notes that a risk assessment allows an entity to consider the extent to which potential events
have an impact on the achievement of objectives. Management assesses events from two
perspectives - likelihood and impact - and normally uses a combination of qualitative and
quantitative methods. The positive and negative impacts of potential events should be examined,
individually or by category, across the entity. Risks are assessed on both an inherent and a residual
basis. Inherent risk is the risk to an entity in the absence of any actions management might take to
alter either the risk’s likelihood or impact. Residual risk is the risk that remains after management’s
response to the risk.

The COSO ERM Framework notes that the risk assessment component is a continuous and iterative
interplay of actions that take place throughout the entity. While managers responsible for business
unit, function, process, or other activities develop a composite assessment of risk for individual
units, entity-level management should consider risk from a “portfolio” perspective.

Risk Assessment Factors at the FDIC

The FDIC’s internal risk assessment activities are reflected in the following:

   •   Circular 4010.3 includes the concept of identifying and analyzing exposure to risks from
       both external and internal sources, and cites as policy that management should evaluate
       the risks identified for key activities in terms of both the likelihood of occurrence and the
       potential impact. The circular offers OERM’s assistance to divisions and offices in
       regard to such evaluations.

   •   OERM’s guidance for assurance statements highlights the concept of risk assessment
       being a continuous interplay of actions in an organization by stating that the primary
       basis for providing assurance on issues should be management’s judgment based on
       knowledge gained from the daily operation of programs and systems and supplemented
       by results of internal reviews, audits, evaluations, and similar activities.

   •   OERM issued OERM Risk Manager Guidelines in 2005 for OERM staff who may be
       appointed to serve as risk managers on major IT projects. The guidelines include a
       discussion of risk assessment techniques, including assessing probability and impact.

   •   The FDIC’s Legal Division, OERM, and CU developed enterprise risk management
       training which was presented to Legal Division management in July and October 2006.
       The training included a discussion of using qualitative techniques in risk assessments
       through which the impact of risk is portrayed as high, medium, or low, and the likelihood
       of occurrence is demonstrated as significant, moderate, or low.


                                                  16
Opportunities to Enhance the FDIC’s Risk Assessments

FDIC Circular 4010.3 discusses the likelihood and impact of risk in the context of policy, but the
circular does not indicate how risk assessments should be performed. OERM has not issued
implementing procedures to specify how divisions and offices should be conducting risk
assessments. Instead, Circular 4010.3 assigns responsibility for each division and office to
establish its own risk assessment technique. Further, Circular 4010.3 focuses on division and
office risk assessments for their respective organizations and does not address the principle of
identifying and assessing risks that are common across the Corporation.

In this regard, we identified differences regarding how divisions and offices conducted risk
assessment activities. Moreover, one division and one office representative expressed a desire
for guidance from OERM regarding conducting risk assessments.

The COSO ERM Framework states that an entity need not use common assessment techniques
across all business units and adds that the choice of techniques should reflect the need for
precision and the culture of the business unit. However, COSO also states that although different
methods may be used, they should provide sufficient consistency to facilitate the assessment of
risks across the entity. Consistency would also facilitate developing an entity-wide risk
portfolio. Finally, COSO notes that the time horizon used to assess risk should be consistent
with the time horizon of the related strategy. Risk assessments may be:

   •   qualitative—such as risk rankings, risk maps, and risk questionnaires, or
   •   quantitative—such as probability-based techniques, stress testing, and scenario analyses.

As discussed earlier, OERM has requested divisions and offices to identify second-tier issues,
which represents an improvement in the risk assessment process. However, OERM has not
provided implementing guidance for prioritizing or assessing risk associated with second-tier
issues, and we saw limited evidence that OERM or divisions and offices took steps to prioritize
or perform risk assessments of second-tier issues. OERM’s predecessor organization, the OICM,
issued the FDIC Internal Control and Risk Management Manual in 1998, which included
guidance for performing risk assessments and risk assessment questionnaires for management’s
use. As discussed in Appendix II, some FDIC organizations are still using some of the risk
assessment techniques in the manual for their respective operations.




                                               17
    COSO ERM      Risk Response:
    Framework     Personnel identify and evaluate possible responses to risks, which include
                  avoiding, accepting, reducing, and sharing risk. Management selects a set
                  of actions to align risks with the entity’s risk tolerances and risk appetite.

COSO provides that, having assessed relevant risks, management determines how it will respond.
In considering its response, management assesses the effect on risk likelihood and impact, as well
as costs and benefits, selecting a response that brings residual risk within desired risk tolerances.
Management identifies any opportunities that might be available and takes an entity-wide view of
risk, determining whether overall residual risk is within the entity’s risk appetite.

Risk Response Factors at the FDIC

Circular 4010.3 provides possible risk mitigation strategies, including accepting a perceived low
level of risk, developing additional controls, or instituting a process of independent testing to
provide greater assurance that risks are mitigated to the extent necessary. In addition, in its
guidance for the 2007 assurance statement process, OERM requested that divisions and offices
provide a brief summary of any actions taken during 2007 to address second-tier issues identified
during the 2006 assurance statement process.

We identified a good example where the FDIC identified and assessed risks, and developed
mitigation strategies. The FDIC’s Deposit Insurance Reform Executive Risk Management
Committee prepared a proposed list of risks associated with deposit insurance reform activities,
titled, DI Reform – Risks Managed by DIRMT. The listing included a title and description of
identified risks, a numerical ranking of the magnitude of the risk, and control strategies for each
risk to either mitigate the risk or develop contingency plans to address the risk. The listing
effectively documented the risk response strategy and assigned a risk owner for each risk.

Opportunities to Enhance the FDIC’s Risk Response

OERM could do more in this area by providing guidance to divisions and offices on how they
should respond to identified risks (such as the second-tier issues) and to provide training related
to the various types of risk responses (avoiding, reducing, sharing, accepting) and the concept of
residual risk. 9

We noted that OERM’s guidance for assurance statements includes a statement that the non-
material challenges reported for the year should be the primary (but not exclusive) basis for
review initiatives planned by the respective division or office for the upcoming year. However,
we did not see evidence that OERM evaluates the second-tier issues for commonality or
aggregate effect across the Corporation. Taking such an enterprise-wide view may reveal that
although business unit risks may be within the risk tolerances of the individual units, aggregate
risks might exceed the risk appetite of the entity as a whole.
9
    COSO states that, in assessing risk, management considers both inherent and residual risk. Inherent risk is the
    risk to an entity in the absence of any actions management might take to alter either the risk’s likelihood or
    impact. Residual risk is the risk that remains after management’s response to the risk.


                                                           18
              Control Activities:
 COSO ERM     Control Activities are the policies and procedures that help ensure that
 Framework    management’s risk responses are carried out and objectives are achieved.
              Control activities may be categorized based on the nature of the entity’s
              objectives to which they relate: strategic, operations, reporting, and
              compliance.

According to COSO, control activities occur throughout the organization at all levels and in all
functions. They include a range of activities as diverse as approvals, authorizations,
verifications, reconciliations, reviews of operating performance, and segregation of duties.

Control Activities at the FDIC

The FDIC’s risk management program identifies the internal control standard related to control
activities stating that management shall develop and implement policies, procedures, techniques,
and mechanisms ensuring that management directives are carried out. Some key control
activities cited in Circular 4010.3 include:

   •   Top level review of actual performance.
   •   Management reviews at the program activity level.
   •   Management of human capital.
   •   Controls over information processing.
   •   Physical control over valuable assets.
   •   Establishment and review of performance measures and indicators.
   •   Segregation of duties.
   •   Proper execution of transactions and events.
   •   Accurate and timely recording of transactions and events.
   •   Access restrictions to and accountability for resources and records.
   •   Appropriate documentation of transactions and internal controls.

In addition, the FDIC has established scorecard initiatives in some divisions, and other control
activities are reflected in corporate documents such as the FDIC Bylaws, DSC regional director
memoranda, and various manuals and circulars.

OERM’s guidance for preparing annual assurance statements requires divisions and offices to
provide assurance on control activity-related areas of interest. For example, the 2006 assurance
statement guidance requested that divisions and offices provide assurance on a number of items,
including that:

   •   procedures were fully documented for all key activities,
   •   systems security was in substantial compliance with all relevant requirements,
   •   continuity of operations planning in all critical areas was sufficient to reduce risk to
       reasonable levels in the event of a disaster, and




                                                 19
   •   sufficient actions had been taken to minimize any negative impact associated with
       downsizing.

Opportunities to Align Control Activities with Risk Responses

The COSO ERM Framework notes that control activities are an important part of the process by
which an entity strives to achieve its business objectives. While Circular 4010.3 identifies key
control activities in the context of the GAO’s Standards for Internal Control in the Federal
Government, as is appropriate, the Circular does not address control activities in the context of
ERM. In this regard, OERM could provide additional guidance or assistance to divisions and
offices in:

   •   consistently linking corporate objectives to risk responses and to control activities;
   •   ensuring that control activities are designed to help ensure that strategic, operational,
       reporting, and compliance objectives are met; and
   •   evaluating control activities from a corporate-wide, or portfolio, perspective.




                                                20
              Information and Communication:
 COSO ERM
 Framework    Relevant information is identified, captured, and communicated in a form
              and timeframe that enable people to carry out their responsibilities.
              Effective communication occurs in a broader sense, flowing down, across,
              and up the entity.

COSO states that information is needed at all levels of an organization to identify, assess, and
respond to risks, and to otherwise run the entity and achieve its objectives. Information systems
must provide information to appropriate personnel so that they can carry out their operating,
reporting, and compliance responsibilities. But communication also must take place in a broader
sense, dealing with expectations, responsibilities of individuals and groups, and other important
matters. Further, personnel must have a means of communicating significant information
upstream. COSO also provides that every enterprise identifies and captures a wide range of
information relating to external as well as internal events and activities, relevant to managing the
entity. Technology plays a critical role in enabling the flow of information in an entity,
including information directly relevant to enterprise risk management.

Protiviti®, Inc. notes that reporting is integral to the information and communication ERM
component because it drives transparency about risk and risk management throughout the
organization to enable risk assessment, execution of risk responses and control activities, and
monitoring of performance.

Information and Communication Factors at the FDIC

The FDIC communicates information through a number of periodic reports for senior corporate
managers pertaining to internal FDIC matters, such as:

   •   Quarterly CIRC reports on the status of capital investment projects (such as IT system
       development efforts);
   •   Semiannual Contract Assessment Reports that provide cost, milestone, and performance
       information on contracts valued at $5 million or greater;
   •   Quarterly Emergency Preparedness Reports;
   •   Quarterly CFO reports to the Board highlighting financial activities and results; and
   •   Quarterly Performance Summary on the status of CPOs and Annual Performance Goal
       exception reporting.

The Chairman’s office has taken steps to make sure that the Chairman and the FDIC Board
Members receive appropriate management reports in a format and level of detail that enhances
understanding. The Chairman’s office is developing a secure electronic repository to house
FDIC Board and Chairman-level reports to improve management report delivery and availability.
With regard to providing information to employees, the FDIC communicates information to staff
in various ways, including:




                                                21
   •   Posting on the FDIC’s internal Web site performance information such as the CPOs,
       summary of year-to-date cumulative results on the accomplishment of the CPO goals,
       and APPs.
   •   DSC’s balanced scorecard is available to all DSC staff and provides detailed information
       about strategic objectives and performance targets to provide a comprehensive view of
       business operations at the national, regional, and territory level.
   •   DOF’s balanced scorecard is available to FDIC employees and presents performance
       measurement information about DOF operations, strategies, and initiatives.
   •   DOA and DOF encouraged their staff to participate in the 2008 corporate-wide planning
       and budget process by submitting potential new projects, performance objectives, and
       initiatives for 2008.

Annual Assurance Statement Process: As discussed earlier, OERM issues annual assurance
statement guidance to divisions and offices that includes instructions for providing assurance on
internal control objectives (for purposes of external reporting) and disclosing non-material
challenges (second-tier issues) requiring management’s attention (for purposes of internal
reporting). OERM indicated that division and office disclosure of second-tier issues is a positive
step, because it affords management the opportunity to devote resources to address those issues
and to better plan risk management activities.

Opportunities to Enhance the FDIC’s Information and Communication Efforts

OERM internal reporting on ERM activities could be enhanced. For example,

   •   While OERM briefs executive management and produces a bi-weekly Audit Status
       report, we identified no further examples of ERM reporting from OERM to the
       Chairman’s Office or the FDIC Board.
   •   OERM discontinued the practice of providing monthly status reports to executive
       management in 2005, based on a corporate-wide initiative to streamline reporting.
   •   OERM has also discontinued its practice of periodically meeting with internal control
       liaisons from FDIC divisions and offices to discuss internal control and ERM issues.
       Several liaisons indicated that these meetings were helpful and allowed the liaisons to share
       ideas with their counterparts in other divisions and offices. Several liaisons indicated that
       they would like to resume meeting on a quarterly or some other periodic basis.

OERM Assurance Statement: OERM officials stated that they are not required to prepare an
assurance statement regarding OERM’s controls and activities because OERM compiles the
division and office annual assurance statements and preparing its own would constitute
submitting an assurance statement to itself. OERM officials also stated that other offices such as
CFO and COO do not prepare assurance statements. We note that divisions and offices address
their assurance statements to the Chairman, not OERM. Thus, submitting an assurance statement
would not constitute OERM reporting to itself. We also note that OERM has other
responsibilities in addition to facilitating the assurance statement process, including:

   •   the FDIC’s ERM Program,
   •   internal control reviews and program evaluations of the FDIC’s business lines,


                                                 22
      •   monitoring audit follow-up and resolution activities,
      •   Audit Committee activities,
      •   maintaining the audit tracking system,
      •   serving as risk managers for major IT projects, and
      •   the Post-Project Review program.

Without submitting an assurance statement, OERM has not provided the Chairman with
documentation supporting positive assurance that the ERM program and other OERM program
responsibilities are effective and efficient, have sufficient internal controls, follow relevant laws
and regulations, or are supported by documented procedures.

Financial Management Systems Assurance: Opportunities also exist for the FDIC to improve
external reporting of ERM activities. The FDIC Chairman’s assurance statement in the
Corporation’s 2005 and 2006 Annual Reports indicates that the FDIC can provide reasonable
assurance that the objectives of FMFIA Section 2 (internal controls) and Section 4 (financial
management systems) have been achieved. 10 However, OERM has not developed agency-wide
procedures regarding Section 4 assurances and reporting, and we were unable to confirm the
basis or support for the Section 4 assertion related to financial management systems.

Government corporations, including the FDIC, are required by the CFO Act to prepare an annual
management report that is consistent with agency statements on internal accounting and
administrative control systems, as provided in FMFIA. The FMFIA also gives the Director,
OMB, authority to issue implementing guidelines. OMB has done so in Circulars A-123,
Management’s Responsibility for Internal Control and A-127, Financial Management Systems.
The FDIC has concluded that it is not required to comply with these circulars but relies on
OMB’s guidance to achieve compliance with the underlying statutory requirements.

According to A-123, FMFIA Section 4 requires an annual statement on whether the entity’s
financial management systems conform to government-wide requirements. These government-
wide requirements are set forth in part in OMB Circular A-127, section 7, which, among other
things, requires agencies to have financial management systems that meet various requirements,
including the ability to:

      •   Provide timely and useful financial information, including internal and external reporting
          requirements, and ensuring the integrity of financial data through monitoring;
      •   Produce financial information required to measure program, financial, and financial-
          management for budget program-management and financial statement presentation; and
      •   Prepare, execute, and report on the agency’s budget in accordance with OMB
          instructions.

Section 7 of A-127 also states that financial management systems shall be maintained to ensure
efficiency and effectiveness and be clearly and currently documented per applicable guidance.
These systems shall include a system of internal controls that ensure that resource use complies

10
     OMB Circular A-123 includes a provision for FMFIA Section 4 reporting for an annual statement on whether an
     agency’s financial management systems conform to government-wide requirements mandated by the FFMIA and
     section 7 of OMB Circular A-127, Financial Management Systems.


                                                       23
with applicable laws, regulations, and policies; that resources are safeguarded; and reliable data
is produced and reported. Lastly, users of the systems are to be adequately trained and
appropriately supported.

Moreover, under section 9.a.3 of A-127, agencies shall ensure that “appropriate reviews” of their
financial management systems are conducted. These reviews must comply with policies for
(1) reviews of internal control in accordance with OMB guidance for purpose of FMFIA and
Circular A-123; (2) reviews of conformance of financial management systems with Circular A-
127, section 7, in accordance with OMB’s FMFIA guidance; and (3) reviews of systems and
security reviews under OMB Circular A-130, Management of Federal Information Resources.
Lastly, section 9.a.4 requires agencies to issue, update, and maintain agency-wide financial
management directives to reflect policies defined in the Circular (A-127).

In implementing either Circulars A-123 or A-127, OMB has provided agency heads with much
discretion, since the Circulars do not contain any detailed process by which agency heads are to
make their Section 4 assurances. Further, A-127 does not define or describe what is meant by
“appropriate review.” In any case, agencies are required to have financial management
directives that address A-127’s provisions.

We have not identified any OERM or FDIC written procedures on how the Section 4 assurance
statement is to be supported and reported upon. Additionally, although we note that legal
analyses have been prepared for Circulars A-123 and A-127, these analyses have not specifically
addressed the issue of support for the statements of assurance, including the effect of reviews
conducted under A-127, section 9. OERM and the CFO told us that there is no one specific
document or review that would constitute the support or basis for the FDIC’s assurance
statement regarding FMFIA Section 4 reporting. Instead, OERM stated that the basis for the
Chairman’s Section 4 assertion consists of many things taken together in regard to the FDIC’s
core financial management system – New Financial Environment (NFE) and other systems that
interface with NFE, including:

   •   GAO’s Audit of the FDIC’s Financial Statements – the audit work and the results of the
       audit;
   •   FISMA reviews and reports, including security self-assessments and the OIG’s annual
       FISMA evaluation;
   •   FDIC internal control reviews; and
   •   The FDIC’s system development life cycle processes.

We noted that GAO’s financial statement audit report (Federal Deposit Insurance Corporation
Funds’ 2006 and 2005 Financial Statements, dated February 2007, GAO-07-371) omitted
mention of financial management systems under FMFIA, and we confirmed with GAO that the
scope of its financial statement audit did not include FMFIA Section 4 (financial management
systems) reporting. While some elements of the FISMA review and internal control reviews
performed by FDIC divisions and offices may touch upon financial management system aspects,
such as information security, we concluded that support for Section 4 reporting was
undocumented, indirect, and fragmented and could be improved.




                                                24
Given the statutory nature of the FDIC’s Annual Report 11 , there should be adequate support
behind the Chairman’s statements of assurance regarding FMFIA Sections 2 and 4. To help
ensure the adequacy of such support, the FDIC should develop and document procedures that
consider the provisions of OMB’s Circulars A-123 and A-127 and other relevant authorities, in
general, and the following topics, in particular:

      •   what financial management systems reviews should be performed,
      •   the organization(s) responsible for the reviews,
      •   what supporting documentation is needed for the assurance statement, and
      •   to whom and in what manner or form the results of financial management system reviews
          should be reported.

A more clearly defined process for Section 4 reporting would also help ensure that the Director,
OERM, has sufficient information for determining whether any weaknesses identified in the
financial systems reviews need to be reflected in the Chairman’s assurance statement and/or
warrant reporting for purposes of OMB Circulars A-123 and Circular A-127.




11
     Federal Deposit Insurance Act, section 17, and the CFOA.


                                                        25
 COSO ERM     Monitoring:
 Framework    The entirety of enterprise risk management is monitored and modifications
              made as necessary. Monitoring is accomplished through ongoing
              management activities, separate evaluations, or a combination of the two.

According to COSO, ongoing monitoring occurs in the normal course of management activities. The
scope and frequency of separate evaluations depends primarily on an assessment of risks and the
effectiveness of ongoing monitoring procedures. ERM deficiencies are reported upstream, with
serious matters reported to top management and the board.

Monitoring Activities at the FDIC

Examples of monitoring of internal operations through ongoing management activities include:

   •   periodic reports to the COO, CFO, FDIC Chairman, and FDIC Board, detailing the use of
       delegated authority by FDIC staff;
   •   budget variance analyses and mid-year budget review; and
   •   assignment of oversight managers and technical monitors to procurement efforts.

Examples of separate evaluations of internal operations at the FDIC include:

   •   audits and studies of FDIC programs, operations, and financial statements from the GAO;
   •   audits and evaluations of programs and operations conducted by the OIG; and
   •   internal control reviews and program reviews conducted by division and office internal
       review units.

OERM Monitoring Activities: OERM indicated that it has conducted reviews and studies in areas
such as:

   •   performing quality assurance work to ensure the data integrity of the Office of Diversity and
       Economic Opportunity case processing systems and completeness of case files,
   •   assisting the Privacy Program Manager in developing aspects of a privacy program,
   •   analyzing the number of management reports submitted to the FDIC Board and Chairman’s
       Office, and
   •   reviewing DOF and DIR procedures for updates required by the implementation of Deposit
       Insurance Reform.

OERM also has one staff member who participates in DSC regional office reviews with DSC’s
Internal Control and Review Section and performs internal control reviews of DSC operations. For
example, OERM provided internal control review reports related to determining: whether a regional
office’s published policies were current and complete; how another regional office utilized DSC
Scorecard information, and how the regional office managed the accuracy of Corporate Human
Resources Information System staffing tables and salary cost allocations to corporate programs.




                                                 26
Opportunities to Enhance ERM monitoring

Under the FDIC Bylaws, OERM also has responsibility for conducting program evaluations of the
Corporation’s business lines (DSC, DIR, DRR) as contemplated under GPRA. In this regard, we
recommended in a recent report12 that OERM take steps to add greater independence and structure to
its program evaluation efforts, such as developing an annual evaluation schedule, defining the scope
and methodology of procedures performed, and reporting recommendations for program
improvements.

OERM also has desk officers who are assigned to each division and office throughout the FDIC. The
desk officers indicated that they are involved in monitoring certain second-tier issues through
frequent communication with their respective divisions and offices. OERM does not formally
document its reviews but predominantly uses informal communication channels. The COSO ERM
framework allows that many aspects of enterprise risk management are informal and undocumented,
yet are regularly performed and highly effective. However, in this regard, COSO also states that an
appropriate level of documentation usually makes evaluations more effective and efficient.

Finally, although the CFO indicated that he is responsible for overseeing OERM, we did not see
a formal program or process for monitoring OERM’s implementation of ERM. Such oversight
should ensure that OERM implements ERM infrastructure and the basic components of COSO’s
ERM Framework and that the ERM program delivers risk management information that is useful
and actionable.

Recommendations

The FDIC’s overall ERM program varies in some respects from what is recommended by
COSO. Although organizations have latitude and flexibility in implementing ERM to meet
specific needs, the FDIC may wish to take action to more closely align corporate practices with
the COSO framework and thereby maximize the effectiveness and efficiency of the various risk
management activities currently in place throughout the Corporation.

1. We recommend that the Chairman further study variances between the FDIC’s overall
   internal ERM efforts and the COSO ERM Framework as discussed in this report and take
   steps to address the variances where it will add value to the FDIC’s ERM program. Areas for
   potential focus include:

      •   Defining and communicating the Corporation’s risk appetite and ensuring that corporate
          objectives are aligned with that appetite.
      •   Establishing and documenting corporate-wide processes for identifying, assessing, and
          responding to internal risks.
      •   Establishing effective channels for OERM to communicate risk management information
          throughout the organization, such as through periodic status reports and meetings with
          divisional risk management/internal review units.



12
     Evaluation of the FDIC’s Use of Performance Measures (Report No. EVAL-07-002), dated May 2007.


                                                     27
   •   Identifying the process for monitoring the implementation of ERM through ongoing
       activities or separate evaluations of division and office risk management programs and
       OERM’s enterprise risk management program.

2. We recommend that the Director, OERM, take necessary steps to develop and issue an
   annual assurance statement to the Chairman related to the ERM program and other OERM
   responsibilities.

3. We recommend that the Director, OERM, coordinate with the Legal Division to review
   section 4 reporting requirements to determine the FDIC’s reporting responsibilities.

4. Based on the results of recommendation 3, we recommend that the Director, OERM, issue
   guidance for FMFIA section 4 reporting and the work required to support an assertion on
   financial management systems.




                                              28
Structure of the FDIC’s Internal ERM Program

   Implementing ERM: An entity’s size, complexity, industry, culture,
   management style, and other attributes will affect how the framework’s
   concepts and principles are most effectively and efficiently implemented.


The COSO ERM Framework notes that organizations implement ERM differently, but indicates
there are common broad-based steps taken by entities that have successfully implemented ERM,
such as conducting a current state risk assessment, developing an entity-wide ERM vision, and
ensuring capability development, which includes defining roles and responsibilities; policies,
processes, tools, techniques, information flows and technologies; and competencies. These
capabilities are also collectively known as the ERM Infrastructure. Table 1 presents some
common elements of ERM infrastructure.

Table 1: Common Elements of ERM Infrastructure
ERM Infrastructure Elements
• CEO commitment (tone and message from the top),            • Techniques for identifying risk,
• Risk policies and/or mission statements, including         • Tools for assessing risks,
  adapting any company risk or audit committee charter       • Tools for reporting and monitoring risks,
  to incorporate ERM,
                                                             • Incorporating risk into appropriate employees’ job
• Reporting to business units, executives, and the board,      descriptions and responsibilities,
• Adoption or development of a risk framework,               • Incorporating risk into the budgeting function, and
• Adoption or development of a common risk language,         • Integrating risk identification and assessment into
                                                               the strategy of the organization.
 Source: Institute of Management Accountants, Statement on Management Accounting, Enterprise Risk
 Management: Tools and Techniques for Effective Implementation, 2007.

The FDIC’s Bylaws state that the Director, OERM, is responsible for administering the
enterprise-wide risk management program that monitors and manages risks by maintaining
partnerships with the divisions and offices, providing training, and addressing internal control
deficiencies. Among other things, the Bylaws provide that the Director, OERM, shall:

    •   develop policies and procedures for the development, maintenance, and evaluation of a
        comprehensive ERM program;
    •   design and implement corporate-wide ERM training programs;
    •   conduct outreach activities to explore best practices found in public and private sectors;
    •   conduct corporate internal control reviews; and
    •   serve as the risk manager for certain large IT projects that fall under the CIRC.

In addition, the Position Description for the Director, OERM, includes the following duties:

    •   designing OERM’s governance model for internal risk;
    •   establishing policies and procedures to manage enterprise-wide internal risk;




                                                        29
   •   developing an integrated risk management program for the FDIC that entails identifying,
       prioritizing, measuring, monitoring, and managing/controlling the most material internal
       control and operating/other risks facing the Corporation;
   •   developing risk quantification techniques that facilitate appropriate risk/reward choices
       across the organization;
   •   implementing a consistent risk management framework across FDIC business areas and
       developing, implementing, and measuring the effectiveness of appropriate risk mitigation
       strategies; and
   •   developing and providing appropriate briefing material to the Chairman and Board.

In general, more needs to be done if the Corporation wants to establish an ERM infrastructure as
envisioned in the Bylaws and the Position Description for the Director, OERM, particularly in
the areas of defining roles and responsibilities, developing procedures and guidance, and
developing corporate-wide ERM training programs.

Roles and Responsibilities

The CFO told us that he is responsible for overseeing OERM; however, the FDIC has chosen not
to formally establish roles and responsibilities for overseeing the internal ERM Program,
specifically the roles that the FDIC Chairman, the FDIC Board, and the Audit Committee should
play. Such oversight could help ensure that OERM implements ERM infrastructure and the
basic components of COSO’s ERM Framework and that the ERM program delivers risk
management information that is useful and actionable.

Chairman and Board: The COSO ERM Framework notes that the Chief Executive Officer
(CEO) is ultimately responsible and should assume ownership of ERM. This includes seeing
that all components of ERM are in place. The CEO generally fulfills this duty by:

   •   providing leadership and direction to senior managers, including developing the entity’s
       risk management philosophy, risk appetite, and culture, and
   •   meeting periodically with senior managers to gain knowledge of risks inherent in
       operations, risk responses, control improvements required, and the status of ERM efforts
       under way.

The COSO ERM Framework notes that the Board provides important ERM oversight by:

   •   knowing the extent to which management has established effective ERM;
   •   being aware of, and concurring with, the entity’s risk appetite;
   •   reviewing the entity’s risk portfolio and considering it against the entity’s risk appetite;
       and
   •   being apprised of the most significant risks and whether management responds
       appropriately.

Neither the Bylaws nor the FDIC’s ERM policy specifies the role of the Chairman or the FDIC
Board in implementing or overseeing internal ERM. Further, the Director, OERM, stated that
the FDIC Board does not have a role in internal ERM because the Board’s focus is on external


                                                 30
risks facing the Corporation. We believe that the Chairman and the FDIC Board should have
clearly-defined roles in ERM as suggested by the COSO ERM Framework. We also note that
the COSO approach is consistent with what the FDIC expects of boards of directors for
FDIC-supervised financial institutions. Specifically, an FDIC corporate governance presentation
for new bank directors states that board member responsibilities include identifying the risk
profile for the institution and establishing a risk appetite and risk framework within which to
identify, measure, monitor, and control the risks of the institution.

Audit Committee: The COSO ERM Framework notes that it is not uncommon for oversight
responsibility for ERM to be assigned to the audit committee. COSO notes that with its focus on
internal control over financial reporting, and possibly a broader focus on internal control, the
audit committee already is well positioned to expand its responsibility to overseeing ERM.

OMB Circular A-123 also encourages agencies to consider establishing a Senior Management
Council to assess and monitor deficiencies in internal control. Such councils generally
recommend to the agency head which reportable conditions are deemed to be material
weaknesses to the agency as a whole and may be responsible for (1) overseeing the timely
implementation of corrective actions related to material weaknesses and (2) determining when
reportable conditions or material weaknesses have been corrected.

The FDIC established an Audit Committee as a Standing Committee to the Board. The
delegation of authority establishing the FDIC Audit Committee includes, among other things, the
following responsibilities:

   •   overseeing the Corporation’s financial reporting and internal controls,
   •   reviewing and approving management’s annual plan for compliance with the CFOA, and
   •   assessing the sufficiency of the Corporation’s internal control structure.

OERM’s Circular 4010.3 does not address whether the Audit Committee plays a role in
overseeing ERM or internal control program efforts. OERM’s Web site does indicate that the
Audit Committee reviews and discusses OERM activities and we have observed this on
occasion. Accordingly, considering the Audit Committee for a broader oversight role would be
consistent with the COSO ERM Framework, OMB Circular A-123, and Audit Committee
practices.

OERM’s Role and Responsibilities: As discussed throughout this report, we identified variances
between the requirements for the OERM Director’s position as outlined in the FDIC Bylaws and
the day-to-day operations of OERM. Many of OERM’s efforts relate to serving in an audit
liaison capacity and monitoring the status of on-going audits and corrective actions taken in
response to audit recommendations. Secondarily, we observed that OERM provides assistance
to other divisions and offices as needed to work on special projects, such as the Privacy Program
developed by DIT and the Deposit Insurance Reform initiative.

The OERM Director and OERM staff described much of their risk management efforts as
consisting of meetings and/or briefings with division and office staff on specific topics of
interest. Thus, much of our understanding of OERM’s risk management efforts is based on



                                               31
testimonial evidence as opposed to documentary evidence. Nevertheless, the CFO and COO
indicate that they are pleased with OERM’s contribution to risk management and key internal
initiatives. Given the differences between the Bylaws description of OERM responsibilities and
OERM’s actual efforts, we are suggesting that the FDIC reconcile the two to promote a common
understanding of OERM’s risk management role and responsibilities.

Policies and Procedures

OERM has issued high-level policy related to ERM, but OERM could do more to provide
detailed procedures and guidance related to methodologies, models, and systems that divisions
and offices should use in identifying, assessing, mitigating, and reporting risk information. For
example, Circular 4010.3 sets forth policy 13 related to implementing an ERM Program, stating
that every FDIC operating and policy area should possess the following fundamental
requirements:

      •   current and documented procedures,
      •   reasonable controls incorporated into those procedures,
      •   employees trained in the proper execution of their duties, and
      •   supervisors and managers who are both empowered and held accountable.

Further, the policy indicates that each manager should:

      •   identify key activities within his or her area of responsibility,
      •   seek to determine what impediments (risks) might threaten the ability to achieve success,
      •   evaluate the impediments in terms of likelihood of occurrence and potential impact, and
      •   take actions as deemed necessary to mitigate risk.

Further, OERM issues guidance to divisions and offices annually related to preparing assurance
statements on the adequacy of internal and management/financial system controls. OERM has
also issued guidelines to OERM staff serving as risk managers on CIRC projects.

However, OERM has not issued implementing procedures or guidance to assist divisions and
offices in implementing ERM. According to OERM, it is up to individual division and office
managers to decide how best to implement ERM. As presented in Appendix II, we saw
differences in divisions’ and offices’ ERM programs. Most were still using traditional
“accountability unit” approaches which are based on functional areas, as opposed to the
identification, assessment, and mitigation of risks emanating from strategic objectives. 14
Further, one division and one office expressed a need for guidance from OERM. With clear,
uniform guidance, OERM could increase consistency in FDIC divisions and offices’ approach to
internal ERM.

13
     The circular also lists GAO’s Standards for Internal Control in the Federal Government and other OERM
     program responsibilities such as coordinating the annual assurance statement and performing audit follow-up and
     resolution activities.
14
     It should be noted that Circular 4010.3 does suggest that key activities, from a broad perspective, could be tied to
     CPOs.


                                                           32
In our view, Circular 4010.3 does not meet the level of detailed procedures contemplated in the
Bylaws, the Position Description for the OERM Director, or the COSO ERM Framework.
Moreover, OMB Circular A-123 notes that agency management should have a clear, organized
strategy with well-defined documentation processes that contain an audit trail, verifiable results,
and specify documentation retention periods so that someone not connected with the procedures
can understand the assessment process.

OERM officials told us that they have made no decision in regard to issuing additional ERM
directives or policy. OERM indicated that it had planned to issue procedures for special projects
and studies, but OERM told us it had not made progress on this initiative due to other competing
priorities. We did note that OERM updated its Web site in August 2007.

Training Programs

OERM has not designed and implemented corporate-wide ERM training programs, as required
by the FDIC Bylaws. Competency development is one of the elements of ERM infrastructure
and is important in ensuring that entity employees speak and understand a common risk
management language and that people with the requisite knowledge, expertise, and experience
are put in place to implement the ERM function.

OERM assisted the FDIC’s Legal Division in presenting ERM training to Legal Division
managers but could do more to provide ERM training to other divisions and offices. The
Director, OERM, also indicated that he has spoken about ERM at several divisional conferences;
however, OERM could not provide detailed information about the content of the OERM
Director’s speaking engagements. 15

The Institute of Management Accountants has issued Statements on Management Accounting
related to ERM frameworks and implementing ERM. 16 Table 2 presents examples of ERM-
related training topics.

Table 2: Examples of ERM-Related Training Topics
•   Understanding the nature of risk                     • Software training
•   Understanding risk management legal and regulatory • Financial risk training (options, hedging strategies,
    requirements                                            insurance options, derivatives, etc.)
• Knowledge of ERM frameworks                            • Refocused strategy training and how risk interacts
• Facilitation skills                                       with strategy
• Expertise in identifying risks                         •  Building and understanding control solutions
• Knowledge in building risk maps                        • Developing and monitoring performance metrics
• Reporting structures and options (what to report to       related to risks
    the CEO, board, and audit committee)                 • Change management
 Source: Institute of Management Accountants, Statement on Management Accounting, Enterprise Risk
 Management: Tools and Techniques for Effective Implementation, 2007.


15
     OERM’s Web site indicates that OERM has developed ERM and internal control training programs that are open
     to all division and office staff.
16
     Enterprise Risk Management: Frameworks, Elements, and Integration, 2006, and Enterprise Risk Management:
     Tools and Techniques for Effective Implementation, 2007.


                                                       33
We are recommending that OERM take steps to add greater structure to the ERM program in the
form of defined roles and responsibilities, detailed procedures, and corporate-wide training
programs.

Maturity Level of the FDIC’s Internal ERM Program

A number of organizations recognize the importance of using ERM maturity models to assess an
organization’s progress and status in implementing ERM. The Institute of Internal Auditors
issued an article 17 stressing that maturity models should be easily understandable by management
and should address the key components of best-practice ERM frameworks. The article identifies
areas usually covered in maturity models, including the following:

      •   Extent of leadership awareness within the organization.
      •   Alignment of business objectives with risks and action plans.
      •   Extent to which risk management roles and responsibilities of all employees are
          articulated.
      •   Extent of communication and training on ERM.
      •   Rigor of monitoring and management oversight of employees and committees.

We evaluated the status of the FDIC’s internal ERM program as administered by OERM against
an ERM capability maturity model developed by Protiviti®, Inc. The model provides a
framework for evaluating the maturity of an organization’s risk management capabilities and
ranking those activities on a continuum of five stages of maturity from an Initial State to an
Optimizing State. Figure 3 presents the stages, attributes, and methods of achievement for the
maturity model.




17
     Moving Forward with ERM, published in the Institute of Internal Auditors’ June 2007 issue of Internal Auditor.


                                                         34
Figure 3: Protiviti®, Inc. ERM Maturity Model




 Source: Protiviti®, Inc.

The capability maturity model can be used to target needed risk management capability
improvements in six elements of ERM infrastructure suggested by Protiviti®, Inc.:
(1) Business Policies, (2) Processes, (3) Competencies (people and organization), (4)
Management Reports, (5) Methodologies, and (6) Systems and Data. To illustrate, at the Initial
State:

   •   Business policies are undocumented or vague.
   •   Business processes are informal and reactionary.
   •   There is very little accountability either because a clearly designated risk owner has not
       been identified or there are so many owners of risk that no one can be held accountable.
   •   Management reports are sporadic, ad hoc, and informal.
   •   Methodologies are over-simplified.
   •   Systems and data quality are poor.

Attributes of risk management capabilities at the Repeatable State include the following:

   •   Business plans and risk policy are articulated, and policy is being followed.
   •   Policies are documented and process gaps are being identified and corrected.
   •   Risk owners are clearly defined and supported with staff, roles and commitments are
       explicitly defined and understood, and people are trained in the process.
   •   Regular actionable reports are issued consistently and timely.
   •   Risk measures are improved but not yet integrated, and a mechanism is in place to
       capture process and methodology improvements.


                                               35
   •   Systematic data collection exists for a few risks and is facilitating improved reporting and
       increasing overall confidence in management reports.

Maturity Assessment of the FDIC’s Internal ERM Program

We concluded that the internal ERM program is in the Initial State, but possesses certain
attributes of the Repeatable State, the second level of maturity. Generally, characteristics of the
Repeatable State include a basic policy structure, basic risk management processes, and basic
control activities, which, as we previously reported, the internal ERM program possesses.
However, the Repeatable State is also described as having explicitly defined and understood
roles and commitments, people trained in the ERM process, independent spreadsheet models,
and regular actionable reports—areas in which the FDIC’s ERM Program has not progressed as
far since the FDIC established the program in May 2004. Protiviti®, Inc., notes that while there
are concrete things any organization can do that will make an impact on ERM within 12 months,
it estimates that most organizations will require from 3 to 5 years to accomplish their objectives
in fully implementing their ERM solution.

Recommendations

OERM is responsible for administering a comprehensive ERM program at the FDIC. However,
we noted that OERM’s activities and focus vary from the FDIC Bylaws and policy governing the
Corporation’s ERM program. We are making the following recommendations to help OERM
achieve attributes of a more mature ERM program.

5. We recommend that the Chairman clarify the roles and responsibilities of the Chairman, the
   Board, and the Audit Committee in relation to the FDIC’s ERM program. We also suggest
   that the Chairman reconcile OERM’s current operations with the Bylaws and determine
   whether the Bylaws should be revised or whether OERM should expand certain aspects of its
   operations.

6. We recommend that the Director, OERM, draft and issue detailed procedures for a
   comprehensive ERM program as envisioned in the Corporate Bylaws.

7. We recommend that the Director, OERM, take steps to develop and present corporate-wide
   training to FDIC employees on the ERM program as envisioned in the Corporate Bylaws.




                                                36
Other Matter for Consideration: Integrating Enterprise Risk
Management at the FDIC

     According to COSO, enterprise risk management requires an entity to take a
     portfolio view of risk. This means considering activities at all levels of the
     organization -- from enterprise-level activities such as strategic planning to
     business unit activities and business processes.

As COSO notes, ERM requires management to consider interrelated risks from an entity-level
portfolio perspective. Risks for individual units of the entity may be within the units’ risk
tolerances but, taken together, may exceed the risk appetite of the entity as a whole. With a
composite view at each succeeding level of the organization, senior management is positioned to
determine whether the entity’s overall risk portfolio is commensurate with its risk appetite.

Enterprise Risk Management at the FDIC

As discussed throughout this report, FDIC business line divisions (DIR, DSC, DRR) are
primarily responsible for managing external risks, while OERM focuses principally on internal
risks.

External Risk Management: During a recent study of the FDIC, 18 GAO reported that the FDIC
has an extensive system for assessing and monitoring external risks. GAO noted that in addition
to its supervisory oversight of individual institutions, the FDIC conducts a wide range of other
activities to monitor and assess risk at a broader level, from a regional perspective to a national
view. Specifically, the FDIC’s risk assessment and monitoring process includes input from the:

      •   Regional Risk Committees, which evaluate regional economic and bank trends and risks;
      •   National Risk Committee (NRC), which meets monthly to identify and evaluate the most
          significant external business risks facing the FDIC and the banking industry;
      •   Risk Analysis Center, which is an interdivisional forum for discussing significant,
          cross-divisional, risk-related issues and which provides reports and analysis to the NRC;
      •   Financial Risk Committee, which quarterly recommends an amount for the Deposit
          Insurance Fund’s contingent loss reserve—the estimated probable loss attributable to
          failure of institutions in the coming 12 months; and
      •   DIR, which has a leading role in delivering a key set of semiannual reports 19 that the
          Board uses as a basis for setting the Deposit Insurance Fund’s premium (deposit
          insurance assessments) schedule.



18
     Federal Deposit Insurance Corporation: Human Capital and Risk Assessment Programs Appear Sound, but
     Evaluations of Their Effectiveness Should be Improved (GAO-07-255, February 2007).
19
     These key reports include the Risk Case, which summarizes national economic conditions and banking industry
     trends and discusses emerging risks in banking, and the Rate Case, which recommends a premium schedule
     based on analysis of likely losses to the fund from failures; growth of insured deposits; investment income; and
     other factors.


                                                          37
GAO also noted that the FDIC has developed broad plans and specific strategies for handling an
increase in troubled or failed institutions. In this regard, the Resolution Policy Committee 20 is
responsible for developing plans to handle potential or actual failure of the largest institutions,
and DRR has created a detailed blueprint for managing the failure of a large institution.

GAO concluded that the FDIC could do more to monitor and evaluate its external risk
management activities. GAO also reported that an unclear line of responsibility could be
contributing to weaknesses in some of the FDIC’s evaluations of its risk activities and suggested
that the FDIC would benefit by designating official(s) or an office, or establishing procedures, to
ensure that evaluation and monitoring of risk activities are conducted regularly and
comprehensively. GAO recommended developing policies and procedures that clearly define
how the FDIC will systematically evaluate and monitor its risk assessment activities and ensure
that required evaluations are conducted in a comprehensive and routine fashion. In response, the
FDIC indicated that an interdivisional committee would perform an in-depth review of its current
risk assessment activities and evaluation procedures.

Internal Risk Management: As discussed throughout this report, OERM is responsible for
internal enterprise risk management at the FDIC. In this regard, the CFO issued an e-mail to all
FDIC employees in April 2004, on the subject of Office of Enterprise Risk Management, which
stated:

          Effective immediately, the name of the Office of Internal Control Management
          (OICM) is changed to the Office of Enterprise Risk Management (OERM). A
          review of risk management best practices in the public and private sectors found
          that internal controls have evolved to a more proactive and enterprise-wide
          approach. The proactive approach focuses on the identification, quantification,
          and mitigation of risk, instead of the traditional control evaluation and audit
          tracking model. We firmly believe this is the appropriate direction in which the
          OERM should proceed.

          Unlike many other organizations that manage all risk, both internal and external
          to the entity, the OERM will focus principally on risks internal to the FDIC, such
          as serving as the Risk Manager for several of the largest Information Technology
          (IT) projects which fall under the Capital Investment Review Committee (CIRC).
          External risk management will continue to be the primary responsibility of DIR,
          DSC, DRR, and other divisions and offices throughout the Corporation.

OERM carries out its internal ERM role by meeting with division and office representatives to
discuss internal control issues, conducting internal control reviews—mostly of internal corporate
issues, serving as a risk management advisor on large IT projects, and coordinating the annual
assurance statement process.

Figure 4 on the next page illustrates our understanding of the entities that contribute to the
FDIC’s external and internal risk management activities.
20
     Resolution Policy Committee members are: the COO (serves as chair), CFO, General Counsel, and Directors of
     DSC, DIR, and DRR.


                                                       38
Figure 4: Entities that Contribute to Internal and External Risk Management

        Interagency Committees




                                                                                                  External Operations and Risks
        • Federal Financial Institutions Examination Council (FFIEC)
        • Basel Committee on Banking Supervision




    External Risk Committees                         Driver Divisions
    • National Risk Committee                        • Division of Insurance and Research
    • Regional Risk Committees                       • Division of Supervision and
    • Financial Risk Committee                         Consumer Protection
    • Resolution Policy Committee                    • Division of Resolutions and
    • Risk Analysis Center                             Receiverships




                            Board of                Standing Committees
                                                    • Supervisory Appeals
                            Directors                 Review Committee
                                                                                         OIG
    Operating                                                                            and
                                                    • Case Review
    Committee                                         Committee                          GAO
                            Chairman                • Assessment Appeals
                           COO & CFO                  Committee
                                                    • Audit Committee


    Internally-Focused Committees
    Operational                                       Office of Enterprise
    • Corporate Investment Advisory Group             Risk Management
    • Customer Advisory Committee
    • Savings Plan Committee
                                                      Divisional Internal Control/Risk            Internal Operations and Risk
    Human Resource-Related                            Management Units
    • Human Resources Committee                       • DSC Internal Control and Review
    • Executive Review Board                            Section
    • Chairman’s Diversity Advisory Council           • DRR Internal Review Section
    • Diversity Steering Committee
                                                      • DIR Planning and Resource
    • Alternative Dispute Resolution Steering
                                                        Management Section
      Committee
                                                      • Legal Division Internal Review Group
    Information Technology-Related                    • DIT Audit and Internal Control
    • Capital Investment Review Committee               Section
    • Chief Information Officer Council               • DOF Administration and Internal
    • Project Management Office                         Controls Section
    • Corporate Data Sharing Steering Committee       • DOA Management Support Section
    • Information Technology Committee                • Other internal control resources within
    • Website Advisory Committee                        FDIC offices

Source: OIG Analysis


                                                     39
Opportunities to Enhance ERM at the FDIC

As discussed above, the FDIC ERM Program is limited to internal FDIC operations, by design.
This approach is contrary to the fundamental COSO ERM Framework tenet that ERM should be
applied across the enterprise, at every level and unit, and should include taking an entity-level
portfolio view of risk. Without an enterprise-wide view of risk, the FDIC may not be in a
position to align and integrate varying views of risk management across the organization or
effectively assess systemic risks.

We are suggesting that the FDIC consider whether the Corporation’s internal and external risk
management activities should be integrated and, if so, ensure that such integration is done
efficiently and effectively.


CORPORATION COMMENTS AND OIG EVALUATION

After discussing the draft report findings, suggestions, and recommendations with the Chairman,
management provided us a written response, dated October 18, 2007. As noted in management’s
response, we provided an executive briefing to the Chairman and senior officers of the
Corporation on September 26, 2007, regarding our draft report. The Inspector General further
discussed our recommendations with the CFO and Chairman subsequent to the executive
briefing. Management’s response is presented in its entirety in Appendix II. Appendix III
contains a summary of management’s responses to our recommendations.

It is important to note that, as discussed in management’s response, if there is an unresolved
dispute between management and the OIG on any given audit report recommendation, the Audit
Committee provides input to the Chairman, who makes all final determinations regarding such
disputes in her role as the FDIC’s Audit Follow-Up Official (AFO). Accordingly, in this
instance, because the Chairman has been involved in the response process, management’s written
comments constitute the FDIC’s final determinations regarding the suggestions and
recommendations in our draft report.

In its written response, management indicated that over the past 4 years, the Corporation has
diligently sought to streamline and improve the integration and effectiveness of its internal risk
management processes, employing a number of “best practices” and generally following the
GAO blueprint outlined in GAO’s 2005 testimony before the Subcommittee on Government
Management, Finance, and Accountability/Committee on Government Reform, entitled,
Financial Management: Effective Internal Control is Key to Accountability.

The response further noted that management gave careful thought to the seven recommendations
in our report, as well as the two suggestions we offered. After discussions with the Chairman,
management stated that it intends to adopt certain items in the draft report and has alternative
actions underway that may address some of the concerns underlying these recommendations and
suggestions.




                                                40
The Corporation’s response to the recommendations and suggestions is summarized below,
together with our evaluation of the response. The recommendations and suggestions are
presented in the same order as they appear earlier in the report.

FDIC Committees and Groups that Contribute to Internal Risk Management: We suggest
that the Chairman’s Office, in coordination with the COO and the CFO, articulate and
document how the various committees and groups interrelate in managing internal risk.

Management’s response indicated that the COO and the CFO will look at developing a more
comprehensive blueprint to enhance the coordination and documentation of these committees
and groups, where appropriate, during 2008.

We agree with management’s planned action.

Recommendation 1: We recommend that the Chairman further study variances between
the FDIC’s overall internal ERM efforts and the COSO ERM Framework as discussed in
this report and take steps to address the variances where it will add value to the FDIC’s
ERM program.

Management stated in its response that it agreed that there is value to more clearly defining and
communicating the Corporation’s risk appetite and ensuring that corporate objectives are aligned
with this appetite. The Chairman’s office will be considering a variety of vehicles to do this for
2008 and beyond, such as developing a corporate risk statement to accompany the planning and
budgeting process that produces Corporate Performance Objectives. Further, management stated
that it believes there is merit to exploring improved communication channels regarding internal risk
management and will look for opportunities to add value and enhance these channels, including the
possible augmentation of certain existing reports and/or expanding Audit Committee and other
management briefings.

We agree with management's planned action.

Recommendation 2: We recommend that the Director, OERM, take necessary steps to
develop and issue an annual assurance statement to the Chairman related to the OERM
program and other OERM responsibilities.

Management stated in its response that OERM is an extension of the CFO’s office and, by
design, needs to maintain a certain level of independence for the annual assurance statement
process. Management described OERM’s quality assurance role in that process and stated that it
believes the substance of this process is more effective than just having OERM sign a statement
to the Chairman.

We accept management's response and consider this recommendation closed. However, we
maintain that it would be prudent for OERM, consistent with all other divisions and offices, to
provide documented assurance to the Chairman that its own program is achieving, or assisting
other divisions and offices in achieving, all relevant control objectives.



                                               41
Recommendation 3: We recommend that the Director, OERM, coordinate with the Legal
Division to review section 4 reporting requirements to determine the FDIC’s reporting
responsibilities.

Recommendation 4: Based upon the results of recommendation 3, we recommend that the
Director, OERM, issue guidance for FMFIA section 4 reporting and the work required to
support an assertion on financial management systems.

Management stated in its response that the FDIC’s responsibilities under Section 4 of FMFIA are
clear: the FDIC must provide a statement of assurance as to whether or not its financial
management systems, including its internal controls, are effective. Management further stated
that it believes that OMB Circulars A-11, A-123, A-127, A-130, FFMIA, and FISMA provide
additional variables to consider in determining what the Corporation must do to fulfill its
responsibilities in these matters. According to management, while only a portion of this body of
guidance directly applies to the FDIC from a legal perspective, management has coordinated
with the Legal Division over the years and developed an integrated approach for providing
assurance that it believes more than satisfies the letter (as applicable) and the spirit of the
requirements. Finally, the FDIC believes that its process for assurance reporting emphasizes
substance over form and has been successfully integrated into the day-to-day management of
DOF, DIT, and others in the FDIC who have a role in NFE.

We noted that management's response detailed the FDIC's efforts to meet the requirements of
Section 4 and OMB Circular A-127, Financial Management Systems, in a comprehensive
manner that did not exist when we conducted our evaluation. This newly documented
framework is a positive step toward meeting the intent of report recommendations 3 and 4.
However, we believe it would be prudent for the FDIC to establish this framework formally
outside of management's response to this evaluation. As noted in the report and in management’s
response, we and the Corporation have received different information regarding GAO’s position
on the scope of its financial statement audit as it relates to coverage of Section 4, financial
management systems. We encourage the CFO and OERM—possibly in conjunction with the
Audit Committee—to formally discuss this matter with GAO so that all parties are in agreement
on the scope of the 2008 financial statement audit regarding Section 4 coverage. We would also
suggest that the FDIC include discussion of Section 4, financial management systems, in FDIC
management's assertions to GAO. These assertions help to form the basis and scope of the
financial statement audit.

As discussed above, we believe that the FDIC should take further action to address
Recommendations 3 and 4. As a result, we disagree with management’s decision on these
recommendations. However, because the Chairman as the FDIC’s AFO has already been
consulted on and concurred with management’s response, we will not be pursuing the
recommendations any further and consider them closed.

Recommendation 5: We recommend that the Chairman clarify the roles and
responsibilities of the Chairman, the Board, and the Audit Committee in relation to the
FDIC’s ERM program. We also suggest that the Chairman reconcile OERM’s current




                                              42
operations with the Bylaws and determine whether the Bylaws should be revised or
whether OERM should expand certain aspects of its operation.

Management stated in its response that it would clarify the roles of the Chairman, the Board, and
the Audit Committee in relation to the FDIC’s ERM program. We agree with management’s
planned action on this aspect of the recommendation. The Corporation’s response to reconciling
OERM’s current operations with the Bylaws is discussed further in Recommendations 6 and 7.

Recommendation 6: We recommend that the Director, OERM, draft and issue detailed
procedures for a comprehensive ERM program as envisioned in the Corporate Bylaws.

Recommendation 7: We recommend that the Director, OERM, take steps to develop and
present corporate-wide training to FDIC employees on the ERM program as envisioned in
the Corporate Bylaws.

Management stated in its response that it recognizes the need for a comprehensive ERM
program; the OIG’s concern about consistent, detailed internal control procedures at the
Division/Office level; and the benefits of appropriate training to meet the needs of the FDIC.
However, management does not believe that there are any discrepancies between OERM’s
current operation and the respective Bylaws, and management continues to fully support
OERM’s efforts in developing and implementing a comprehensive ERM program and
appropriate training program. Management’s response described various OERM activities that it
believes provide for a consistent internal control framework across the Corporation.

We contend that an effective and efficient ERM program begins with a sound and mature ERM
infrastructure. As discussed in our report, OERM has not:

•   Established procedures for the development, maintenance, and evaluation of a
    comprehensive ERM program: In this regard, our report notes several sources of criteria
    beyond the Bylaws that call for a well-defined and documented risk management program.
    For example, OMB Circular A-123, Management's Responsibility for Internal Control, notes
    that agency "...management should have a clear, organized strategy with well-defined
    documentation processes that contain an audit trail, verifiable results, and specify
    documentation retention periods so that someone not connected with the procedures can
    understand the assessment process." As discussed in our report, we saw limited
    implementing procedures for the internal risk management program and few recommended
    tools or techniques for identifying, assessing, and reporting risks. Further, as one
    consequence of the lack of established procedures, we found inconsistent practices between
    the various divisional internal review units.

•   Designed and implemented corporate-wide ERM training programs: Our report notes that
    competency development is a key element of ERM infrastructure and that it is important to
    ensure that employees speak and understand a common risk management language and have
    the knowledge and skills to implement the ERM program. The Corporation’s response
    indicates that training and development programs are available and notes that OERM
    encourages divisions and offices to contact OERM if there is a need for training. We agree



                                               43
    that the OERM Web site states that training related to ERM, internal control, and assurance
    statements is available at divisions', offices' or individuals' request. However, OERM
    provided few examples of divisions or offices that had actually received training.

Our evaluation concluded that OERM's internal risk management program was at a relatively
low level of maturity, in part because of a lack of procedures and formal training programs.
During a discussion of the results of our review, the CFO and COO stated that they generally
agreed with our maturity assessment. Thus, we disagree with the Corporation’s response to
Recommendations 6 and 7, which were intended to assist the FDIC in increasing the maturity
level of its internal risk management program. As with Recommendations 3 and 4, because the
Chairman as the FDIC’s AFO has concurred with management’s response, we will not pursue
the recommendations further. We consider the recommendations closed but will look for
opportunities to engage in a continuing dialogue with the Corporation regarding the maturity of
its ERM infrastructure.

Opportunities to Enhance ERM at the FDIC: We are suggesting that the FDIC consider
whether the Corporation’s internal and external risk management activities should be
integrated and, if so, ensure that such integration is done efficiently and effectively. Doing
so would be consistent with the fundamental COSO ERM Framework tenet that ERM
should be applied across the enterprise, at every level and unit, and should include taking
an entity-level portfolio view of risk.

In its response, management stated that the COSO ERM Framework is not appropriate for
universal application to the FDIC. Management further stated that rather than focusing on
housing all external and internal risk management activities in one office or under one person,
the FDIC utilizes a risk matrix approach, with virtually all risk management activities reporting
to either the COO and/or CFO, on behalf of the Chairman. Further, according to the response,
these activities are optimized by extensive communication channels upward and throughout the
FDIC, and are directly linked into the FDIC’s corporate planning, budget, and performance
measurement process.

As noted in the report, we did not do extensive work in this area. In addition, management’s
planned action to develop a more comprehensive blueprint to enhance the coordination and
documentation of committees and groups involved in risk management will help ensure
integration exists, where appropriate. Further, in response to GAO’s Report No. GAO-07-255,
referred to earlier in our report, the FDIC formed a committee to review its risk management
activities and evaluation procedures, make recommendations for strengthening the Corporation’s
risk management framework, and establish a plan for implementing the committee’s
recommendations. Therefore, we accept management’s position on this suggestion.

Tracking Management’s Planned Actions. At a November 2007 meeting between the FDIC
Chairman and the Inspector General, the Chairman committed to tracking those corrective
actions agreed to by management. Accordingly, management’s planned actions in response to
(1) our suggestion regarding documenting how the various committees and groups interrelate in
managing internal risk and (2) Recommendations 1 and 5 should be included in the
Corporation’s Internal Risks Information System, along with expected completion dates.



                                                44
                                                                                      APPENDIX I


                           Objective, Scope, and Methodology
The objective of our review was to assess (1) the extent to which the FDIC has implemented an
enterprise risk management program consistent with applicable government-wide guidance and
(2) OERM’s implementation of FDIC Circular 4010.3, FDIC Enterprise Risk Management
Program, dated September 25, 2006. To accomplish our objective, we assessed:

•   the extent to which the FDIC’s enterprise risk management program addresses Office of
    Management and Budget Circular A-123, Management’s Responsibility for Internal Control,
    dated December 21, 2004, and the Treadway Commission’s Committee of Sponsoring
    Organizations report entitled Enterprise Risk Management – Integrated Framework
    (September 2004), and
•   OERM’s administration of, and FDIC division and office participation in, the FDIC’s
    enterprise risk management program.

Scope and Methodology

We performed field work in the FDIC divisions and offices located in Washington, D.C., and
Arlington, Virginia. We performed our evaluation from December 2006 through June 2007, in
accordance with the Quality Standards for Inspections. To accomplish our objective, we
performed the following:

We identified and reviewed pertinent sections of applicable laws, regulations, and other criteria
on Enterprise Risk Management:

    •   Budget and Accounting Procedures Act of 1950, which includes the Accounting and
        Auditing Act of 1950.
    •   Federal Deposit Insurance Act.
    •   Federal Managers’ Financial Integrity Act of 1982 (FMFIA).
    •   Chief Financial Officers Act of 1990 (CFO Act).
    •   Government Performance and Results Act of 1993 (GPRA).
    •   Federal Financial Management Improvement Act of 1996 (FFMIA).
    •   Reports Consolidation Act of 2000.
    •   Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility
        for Internal Control, dated December 21, 2004, effective for Fiscal Year 2006.
    •   OMB Circular A-127, Financial Management Systems.
    •   GAO Standards for Internal Control in the Federal Government, November 1999
        (GAO/AIMD-00-21.3.1).
    •   FDIC Directive 4010.3, FDIC’s Enterprise Risk Management Program, dated
        September 25, 2006.
    •   COSO Enterprise Risk Management -- Integrated Framework, September 2004.
    •   FDIC Bylaws dated February 22, 2005.




                                                45
                                                                                      APPENDIX I

We researched and reviewed:

   •   GAO Report No. GAO-05-321T, Financial Management: Effective Internal Control Is
       Key to Accountability, February 16, 2005.
   •   GAO Report No. GAO-05-881, Financial Management: Achieving FFMIA Compliance
       Continues to Challenge Agencies, September 2005.
   •   GAO Report No. GAO-07-255, Federal Deposit Insurance Corporation: Human Capital
       and Risk Assessment Programs Appear Sound, but Evaluations of Their Effectiveness
       Should Be Improved, February 2007.
   •   November 23, 2005 Memorandum from the Director, OERM, to Division and Office
       Directors Regarding Update on ERM in the FDIC.
   •   OERM Guidance for Assurance Statements, 2005, 2006, and 2007.
   •   Office of Internal Control Management FDIC Internal Control and Risk Management
       Manual, April 1998.

We reviewed the FDIC’s:

   •   2005-2010 Strategic Plan.
   •   2006 and 2007 Annual Performance Plans.
   •   2003, 2004, 2005, 2006 Annual Reports.
   •   2006 Annual Assurance Statements from Divisions and Offices.

We obtained and reviewed the prior related OIG reports:

   •   Evaluation of the FDIC’s Use of Performance Measures, (Evaluation Report Number
       EVAL-07-002), dated May 2007.
   •   Strategies for Enhancing Corporate Governance, (Audit Report Number 04-032), dated
       September 3, 2004.

We interviewed Internal Control Liaisons and internal review officials in all divisions and two
offices to inquire about their respective risk management programs and activities, and we
reviewed and analyzed material provided by the officials we interviewed.

We met with Office of Thrift Supervision and OCC officials to obtain best practice information
regarding their respective risk management programs.

We researched and reviewed Guide to Enterprise Risk Management: Frequently Asked
Questions, prepared by Protiviti®, Inc., dated January 2006. We also reviewed a Protiviti®, Inc.
publication entitled, Enterprise Risk Management: Practical Implementation Ideas.

We reviewed the Institute of Management Accountants’ Statements on Management Accounting
entitled, Enterprise Risk Management: Frameworks, Elements, and Integration, 2006 and
Enterprise Risk Management: Tools and Techniques for Effective Implementation, 2007. We
reviewed the Institute of Internal Auditors publication entitled, The Audit Committee: A Holistic
View of Risk.



                                               46
                                                                                      APPENDIX I

Evaluation of Internal Controls

We gained an understanding of relevant control activities within the FDIC’s ERM Program by
reviewing:

   •   organization charts,
   •   policies stipulated in FDIC Circular 4010.3,
   •   procedures outlined in guidance issued annually to divisions and offices in regard to
       annual assurance statements, and
   •   the assurance statement process.

Laws and Regulations and Fraud and Illegal Acts

We reviewed the various statutes and implementing regulatory guidance identified in this report
for purposes of determining the legal context in which OERM’s activities operate. Where
appropriate, given the objective of this evaluation, we have identified areas in which compliance
with pertinent legal provisions could be enhanced. The nature of our evaluation objective did not
require that we assess the potential for fraud and illegal acts. However, throughout the
evaluation, we were alert to the potential for fraud and illegal acts, and no instances came to our
attention.




                                                47
                                                                                                     APPENDIX II


         Division and Office Risk Management/Internal Review Programs
The extent to which FDIC divisions and offices are participating in the FDIC’s ERMP varies
from (1) some organizations revamping their respective programs from the traditional internal
control review approach toward an ERM approach to (2) other divisions and offices either
making minor changes or no revisions to their traditional programs because the respective
organizations viewed their internal control programs as being enterprise-wide risk focused.

The resources involved in the internal risk management program are shown in Table 3. It should
be noted that some staff participate in risk management activities on a collateral basis performing
duties such as budgeting, special projects, IT, and details to assist senior management. Further,
senior management executives are not counted in these numbers.

  Table 3: Division and Office Internal Review Staffing
  Divisions/
                Staffing      Description
  Offices
    Legal            7        Four Attorneys, 2 Management Analysts, and 1 Paralegal Specialist.
       DIT           3        One Corporate Manager (CM), 1 CG-14, and 1 CG-13
       DSC          12        12 permanent staff, supplemented by regional and field office detailees.
     DRR             9        Two managers and 7 internal review specialists
    ODEO             3        One CG-14 and 2 CG-13
    DOA              6        One CM, 3 CG-14, 2 CG-13
       DIR           3        One CM and 2 CG-14 (All Collateral Duty )
       DOF          11        One CM, 3 CG-14, 6 CG-13, and 1 CG-12
       OIG           1        CG-14 – Collateral duty
       CU            2        One Manager – Collateral duty, One collateral duty detailee
  Source: Interviews with division and office staff.

We interviewed Internal Control Liaisons (ICL) for the 10 divisions and offices shown above to
inquire about their respective risk management programs and activities. We specifically asked
the ICLs to: (1) provide an overview of the risk management program established in their
respective divisions and offices to support division and office management in reaching program
goals and objectives and using resources efficiently and effectively – a division and office
responsibility outlined in Circular 4010.3, and (2) discuss their internal control/internal review
programs and processes. The following sections reflect the ICLs’ responses to our inquiries.

DSC Internal Control and Review Section (ICRS): is responsible for developing,
implementing, overseeing, and coordinating DSC’s internal risk management activities. DSC
has a comprehensive regional and field office review program that is risk-focused and has
standardized review work programs.

   •    The DSC field territory review process primarily focuses on the overall quality of
        supervisory work products produced by each field territory. A statistical and judgmental




                                                        48
                                                                                      APPENDIX II

        sample of supervisory work products is reviewed for each field territory.

   •    The scope of the regional office reviews is determined based upon four areas: risk profile,
        findings of the field territory reviews conducted in each region, findings in previous
        regional office reviews, and requests/recommendations from the Division Director.

During 2006, ICRS started 38 Field Territory Reviews (23 Risk Management Territories and 15
Compliance Territories). The review program includes DSC internal review staff as well as
detailees from regions and field offices. Subject Matter Experts, such as IT specialists, from
Headquarters also accompany the team. During 2006, DSC detailed 32 staff to work on these
reviews.

DRR Internal Review Section: conducts an annual Risk Assessment during the fourth quarter
of each year to determine areas on which to focus internal control reviews. Using the DRR
Strategic Plan as a foundation, DRR grouped the 2007 risk areas into five (5) broad categories:

   •    Ineffective Use of Human Resources
   •    Loss of Personal and/or Sensitive Information
   •    Lack of Readiness
   •    Incomplete IT Projects
   •    Failure to Maintain Daily Operations

Based upon the risks listed above and feedback received from DRR management regarding the
risks they see for their respective functional areas, DRR identified about 16 potential areas for
review over the next 18 months.

DRR indicated that the Division addresses risk management from an enterprise level, (i.e.,
looking at management of risk associated with an activity or function across all of DRR
functions), and that doing so allows the flexibility to review business processes and work flows
across all affected areas to mitigate risk from a cross-functional perspective.

DIR Planning and Resource Management Section: modeled its internal review program after
DSC’s structured internal review program. DIR uses AUs in its program and has five AUs:

   1.   Call Report.
   2.   Risk Information System.
   3.   Risk Analysis (Operations) – Risk analysis program offices are reviewed every 2 years.
   4.   Central Data Repository.
   5.   Assessments.

DIR’s regional/area offices are subject to an internal review once every 2 years conducted in
accordance with a review program that contains objectives, structure, and review procedures.
DIR’s review program states that the results of the office reviews are used to: (1) provide
feedback to Regional Managers, (2) inform other regions of best practices, (3) serve as tangible
feedback regarding the effectiveness of DIR’s policies, practices, and procedures, and (4) test the
various control objectives established in DIR’s annual strategic plan and AU management
control plans.


                                                49
                                                                                                   APPENDIX II



Legal Division Internal Review Group (IRG): In 2006, IRG developed an enterprise risk
management program that identifies, monitors, and manages risks found in the Legal Division.
The program seeks to concentrate on major or significant risks facing the division that could
grow into serious problems for the Corporation. IRG, with assistance from OERM, looked at the
Legal Division’s eight AUs 21 and IRG reduced the number of AUs to three —Legal Division
Management, Litigation, and Information Systems. For example, IRG determined that while
outside counsel management and ethics were still risk factors, these AUs no longer rose to the
level of individual reporting and were placed into the new Legal Division Management AU.
IRG prepared Internal Control Review Forms for each AU, and identified 3 to 4 risks or potential
vulnerabilities for each AU.

After discussions with OERM, IRG recommended discontinuing the stove-piped site visitation
program and replacing it with division-wide risk management reviews. Under the new program,
each AU would be assigned to a team of two IRG staff, and each team would conduct an annual
review of its assigned AU throughout the Legal Division, as appropriate.

Division of Information Technology Internal Review: DIT has an initiative to change its
entire internal review process to a new industry practice for information technology. DIT has
adopted the COBIT© framework, which is a governance framework and supporting toolset that
helps management bridge the gaps between internal control requirements, risk management, and
technical issues. COBIT© provides a framework to help ensure that IT functions are adequately
aligned with the business, resources are used responsibly, and risks are well managed. COBIT©
is an international IT controls and governance standard that organizes IT activities into
34 processes. COBIT© helps managers ensure that their IT investments are aligned with business
goals and objectives and that IT-related risks and opportunities are appropriately managed.

Division of Administration Management Support Section (MSS): MSS has changed its
internal reviews from a compliance perspective to a more collaborative process in conjunction
with management of important and risky areas. Further, in late 2006, the MSS stated in
correspondence to senior DOA managers that MSS will focus on high-impact areas during the
upcoming year. MSS defines its workload based on meetings with DOA management,
consulting with OERM and reviewing recent audit conditions, analyzing emerging trends, and
relying on professional judgment.

Division of Finance Administration & Internal Control Section (AICS): AICS has three
major functions, namely (1) internal control reviews, (2) business process reviews, and
(3) support to the Director and Deputy Director for special projects. In 2006, DOF’s inventory
of AUs consisted of the following.
    1. Budget.
    2. Assessments.
    3. Manage Cash and Investments.
    4. Disbursements.

21
     The eight AUs were: (1) Outside Counsel Management, (2) Official Records of the Board of Directors,
     (3) Freedom of Information Act/Privacy Act, (4) Rulemaking Process, (5) Employee Ethics, (6) Data Quality,
     (7) Legal Division Litigation, and (8) Legal Division Management.


                                                        50
                                                                                       APPENDIX II

    5.   Receipts.
    6.   Accounting Operations/Corporate Operations.
    7.   Financial Reporting.
    8.   Accounting and Financial Information Systems.

As an example of a business process review, AICS provided a 2006 NFE Business Process
Review Project Plan that included a risk management section that identified objectives and five
steps of the risk management process, namely (1) identify the risks, (2) assess the risks, (3) plan
the risk response, (4) monitor the risk, and (5) document the lessons learned.

ODEO: ODEO uses AUs but merged its three AUs into one AU that includes (1) Complaint
Processing, (2) Diversity and Affirmative Action, and (3) Minority and Women Outreach.
ODEO conducts an internal control review of complaint processing every year, and the other two
programs are reviewed every 2 years. Through a memorandum of understanding dated July 5,
2002, OERM provides routine assistance to ODEO in the following activities:

•   Planning the internal control program.
•   Performing internal control reviews of the Complaint Processing Program.
•   Implementing and monitoring corrective actions for the Complaint Processing Program.

Corporate University (CU): CU does not have a formal internal review program. Controls
over CU include a governing board that is comprised of division and office directors. In
addition, the FDIC Human Resources Committee provides high-level oversight and control over
CU. In 2006, CU had one AU, Contractor Oversight, ranked as a medium risk.

OIG: OIG’s ICL is responsible for the OIG internal control program. The OIG has AUs
corresponding to its major functions and operations -- audits, evaluations, investigations,
Counsel’s operations, and management and congressional relations. OIG operations undergo
internal quality control reviews and external peer reviews.




                                                 51
                       APPENDIX III

CORPORATION COMMENTS




         52
     APPENDIX III




53
     APPENDIX III




54
     APPENDIX III




55
     APPENDIX III




56
     APPENDIX III




57
     APPENDIX III




58
     APPENDIX III




59
     APPENDIX III




60
     APPENDIX III




61
     APPENDIX III




62
     APPENDIX III




63
                                                                                                                                  APPENDIX IV


                                         MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.

 Rec.                                                                                     Expected        Monetary   Resolved:a     Open or
Number                 Corrective Action: Taken or Planned/Status                      Completion Date    Benefits   Yes or No      Closedb
Suggestion   Management will take appropriate action to add more clarity to the
             interaction and interdependencies of the existing committees. The         To be determined      $0         Yes          Open
             COO and the CFO will look at developing a more comprehensive
             blueprint to enhance the coordination and documentation of FDIC
             committees and groups, where appropriate, during 2008.

    1        The Chairman’s office will be considering a variety of vehicles to
             more clearly define and communicate the Corporation’s risk appetite       To be determined      $0         Yes          Open
             and ensure that corporate objectives are aligned with this appetite for
             2008 and beyond, such as developing a corporate risk statement to
             accompany the planning and budgeting process that produces
             Corporate Performance Objectives. Further, management will look
             for opportunities to add value and enhance channels for
             communicating internal risk management activities, including the
             possible augmentation of certain existing reports and/or expanding
             Audit Committee and other management briefings.

    2        No action planned. Management stated in its response that OERM
             is an extension of the CFO’s office and, by design, needs to maintain           N/A             $0         Yes          Closed
             a certain level of independence for the annual assurance statement
             process. Management described OERM’s quality assurance role in
             that process and stated that it believes the substance of this process
             is more effective than just having OERM sign a statement to the
             Chairman.




                                                                                64
                                                                                                                           APPENDIX IV


 Rec.                                                                              Expected        Monetary   Resolved:a     Open or
Number             Corrective Action: Taken or Planned/Status                   Completion Date    Benefits   Yes or No      Closedb
  3      No action planned. Management stated in its response that the
         FDIC’s responsibilities under Section 4 of FMFIA are clear and that          N/A             $0         Yes          Closed
         management has coordinated with the Legal Division over the years
         and developed an integrated approach for providing assurance that
         more than satisfies the letter (as applicable) and the spirit of the
         Section 4 requirements.

  4      No action planned. Management stated in its response that the
         FDIC’s responsibilities under Section 4 of FMFIA are clear and that          N/A             $0         Yes          Closed
         management has coordinated with the Legal Division over the years
         and developed an integrated approach for providing assurance that
         more than satisfies the letter (as applicable) and the spirit of the
         Section 4 requirements.

  5      Management will clarify the roles of the Chairman, the Board, and
         the Audit Committee in relation to the FDIC’s ERM program. We          To be determined      $0         Yes          Open
         agree with management’s planned action on this aspect of the
         recommendation.

         However, management does not believe that there are any
         discrepancies between OERM’s current operation and the respective
         Bylaws, and management continues to fully support OERM’s efforts
         in developing and implementing a comprehensive ERM program
         and appropriate training program.

  6      No action planned. Management does not believe that there are any
         discrepancies between OERM’s current operation and the respective            N/A             $0         Yes          Closed
         Bylaws, and management continues to fully support OERM’s efforts
         in developing and implementing a comprehensive ERM program
         and appropriate training program.




                                                                          65
                                                                                                                                               APPENDIX IV


 Rec.                                                                                      Expected             Monetary        Resolved:a        Open or
Number                    Corrective Action: Taken or Planned/Status                    Completion Date         Benefits        Yes or No         Closedb
      7         No action planned. Management does not believe that there are any
                discrepancies between OERM’s current operation and the respective             N/A                   $0              Yes            Closed
                Bylaws, and management continues to fully support OERM’s efforts
                in developing and implementing a comprehensive ERM program
                and appropriate training program.

Suggestion      No action planned. In its response, management stated that the
                COSO ERM Framework is not appropriate for universal application               N/A                   $0              Yes            Closed
                to the FDIC. Management further stated that rather than focusing on
                housing all external and internal risk management activities in one
                office or under one person, the FDIC utilizes a risk matrix approach,
                with virtually all risk management activities reporting to either the
                COO and/or CFO, on behalf of the Chairman. Further, these
                activities are optimized by extensive communication channels
                upward and throughout the FDIC, and are directly linked into the
                FDIC’s corporate planning, budget, and performance measurement
                process.


a
    Resolved: (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
              as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed. In this case, we
are closing the recommendations because the Chairman, as the Corporation’s AFO, has supported management’s response to the report’s suggestions and
recommendations.




                                                                                 66
